i
TABLE OF CONTENTS
Order vacating and remanding as moot
(9th Cir. July 30, 2020) ..................................... 1a
Order on the Cross Motions for Summary Judgment
(W.D. Wash. March 15, 2019) ........................... 4a
Order for supplemental briefing on the question of
mootness (9th Cir. April 28, 2020).................... 16a
Appellants’ Supplemental Brief on Mootness,
(9th Cir. May 28, 2020) ..................................... 18a
Supplemental Brief of Appellee City of Seattle on the
Issue of Mootness
(9th Cir. June 29, 2020) .................................... 32a
Appellants’ Supplemental Reply Brief on Mootness
(9th Cir. July 10, 2020) ..................................... 48a
Civil Rights Complaint for Declaratory and
Injunctive Relief
(W.D. Wash. May 23, 2018) .............................. 56a
Seattle Ordinance 125551 (Ban Ordinance) (passed
March 19, 2018) ................................................. 66a
Seattle Central Staff Memorandum re CB 119198:
Prohibiting Use of Rental Housing Bidding
Platforms (dated March 7, 2018) ...................... 71a
Seattle Ordinance 125840 (New Ban Ordinance)
(passed June 10, 2019) ...................................... 75a
Seattle Office of Housing Rent Bidding Study
(dated July 3, 2019) ........................................... 81a
Seattle Ordinance 126053 (Repeal Ordinance)
(passed March 9, 2020) ................................... 106a

Appendix 1a
FILED
JUL 30 2020
MOLLY C. DWYER,
CLERK
U.S. COURT OF APPEALS
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
RENTBERRY, INC., a
Delaware corporation;
DELANEY WYSINGLE,
an individual,
Plaintiffs-Appellants,
v.
CITY OF SEATTLE, a
Washington municipal
corporation,

No.19-35308
D.C. No.2:18-cv-00743RAJ
ORDER*

Defendant-Appellee.
Appeal from the United States District Court for the
Western District of Washington
Richard A. Jones, District Judge, Presiding
Submission Deferred March 4, 2020**
Submitted July 29, 2020
Seattle, Washington
Before: IKUTA, R. NELSON, and HUNSAKER,
Circuit Judges.

Appendix 2a
After reviewing the parties’ supplemental briefing
on mootness, we conclude this case is moot.
First, Appellants have not met their burden of
showing a “reasonable expectation” that Seattle will
enact a same or similar ordinance in the future. See
Bd. of Trs. of Glazing Health & Welfare Tr. v.
Chambers, 941 F.3d 1195, 1199 (9th Cir. 2019) (en
banc). Neither the language of the repeal ordinance
nor Appellee’s efforts to gather data on the impact of
rent-bidding platforms are sufficient to overcome the
presumption that “the government is acting in good
faith” when it voluntarily ceases challenged activity.
See Am. Cargo Transp., Inc. v. United States, 625 F.3d
1176, 1180 (9th Cir. 2010).
Second, while “[a] live claim for nominal damages
will prevent dismissal for mootness,” Bernhardt v.
County of Los Angeles, 279 F.3d 862, 872 (9th Cir.
2002), Appellants’ last-minute request for nominal
damages is not live because it was not raised before
the district court. Their inclusion of a catch-all request
for “such additional relief as may be just and proper”
in the complaint does not allow Appellants to now
attempt to “wrest a claim for nominal damages from
[this] general prayer for relief for the first time on
appeal.” Bain v. Cal. Teachers Ass’n, 891 F.3d 1206,
1213–14 (9th Cir. 2018) (quoting Bayer v. Neiman
Marcus Grp., Inc., 861 F.3d 853, 869 (9th Cir. 2017)).
Because there is no “change in the legal framework
governing the case” and Appellants do not have a
“residual claim . . . that was understandably not
asserted previously,” N.Y. State Rifle & Pistol Ass’n,
Inc. v. City of New York, 140 S. Ct. 1525, 1526 (2020)
(quoting Lewis v. Cont’l Bank Corp., 494 U.S. 472,
482–483 (1990)), we vacate the district court’s

Appendix 3a
judgment and remand with an instruction to dismiss
this case as moot.
VACATED AND REMANDED.
*This order is not appropriate for publication and
is not precedent except as provided by Ninth Circuit
Rule 36-3.
**The panel unanimously concludes this case is
suitable for decision without oral argument. See Fed.
R. App. P. 34(a)(2).

Appendix 4a

HONORABLE RICHARD A. JONES
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
RENTBERRY, INC., a
Delaware corporation;
and DELANEY
WYSINGLE, an
individual,
Plaintiffs,
v.
CITY OF SEATTLE,
Defendant.

Case No. 2:18-cv-00743RAJ
ORDER ON THE
PARTIES’ CROSSMOTIONS FOR
SUMMARY
JUDGMENT

I. INTRODUCTION
This matter comes before the Court on the parties’
motions for summary judgment. Dkt. ## 22, 26. For
the reasons below, the Court GRANTS Defendant’s
motion and DENIES Plaintiffs’ motions.
II. BACKGROUND
Concerned about the effect of auctioning
technology on their ability to find affordable housing,
students at the University of Washington petitioned
the Seattle City Council (the “City Council”) in
January 2018. Dkt. # 27, ¶ 2; Dkt. # 27-1. They called
on the City Council to enact legislation banning the
use of “online bidding services” to set rent prices
within its borders. Id.; Dkt. # 27-2. After considering
the matter, the City Council passed Ordinance No.

Appendix 5a
125551 (the “ordinance”) in March 2018. Dkt. # 22-1.
The ordinance adds Section 7.24.090 to the Seattle
Municipal Code, which reads in part: “Landlords and
potential tenants are prohibited from using rental
housing bidding platform for real property located in
Seattle city limits.” Dkt. # 22-1 at 6. The ordinance
expires automatically after one year unless the City
Council exercises its authority under Section
7.24.090.C to extend the prohibition for an additional
twelve months. Id. Section 7.24.090.C permits an
extension if Defendant City of Seattle requests more
time to complete its study into the potential effects of
auctioning technology on the Seattle rental market.
Id.
Plaintiff Rentberry, Inc. is a startup company that
uses bidding technology to assist landlords and
potential tenants in facilitating rental transactions.
Dkt. # 22-5, ¶ 2. Rentberry claims that it would open
its website to Seattle property listings but for the
ordinance. Id. Plaintiff Delaney Wysingle owns a
rental property in Seattle. Dkt. # 22-4. He began
remodeling his rental property in March 2018 and
would ultimately like to use Rentberry to find a
tenant. Id.
On March 23, 2018, Plaintiffs filed a suit against
the City of Seattle (the “City”) for declaratory and
injunctive relief. Dkt. # 1. Plaintiffs claim the
ordinance violates their right to free speech under the
First and Fourteenth Amendments. Id. On August,
17, 2018, Plaintiffs moved for summary judgment.
Dkt. # 22. On September 13, 2018, the City filed a
cross-motion for summary judgment and a response to
Plaintiffs’ motion. Dkt. # 26. Plaintiffs filed their

Appendix 6a
response on October 4, 2018 and the City filed their
reply on October 18, 2018. Dkt. ## 29, 31.
III. LEGAL STANDARD
Summary judgment is appropriate if there is no
genuine dispute as to any material fact and the
moving party is entitled to judgment as a matter of
law. Fed. R. Civ. P. 56(a). The moving party bears the
initial burden of demonstrating the absence of a
genuine issue of material fact. Celotex Corp. v. Catrett,
477 U.S. 317, 323 (1986). Where the moving party will
have the burden of proof at trial, it must affirmatively
demonstrate that no reasonable trier of fact could find
other than for the moving party. Soremekun v. Thrifty
Payless, Inc., 509 F.3d 978, 984 (9th Cir. 2007). On an
issue where the nonmoving party will bear the burden
of proof at trial, the moving party can prevail merely
by pointing out to the district court that there is an
absence of evidence to support the non-moving party’s
case. Celotex Corp., 477 U.S. at 325. If the moving
party meets the initial burden, the opposing party
must set forth specific facts showing that there is a
genuine issue of fact for trial in order to defeat the
motion. Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
250 (1986). The court must view the evidence in the
light most favorable to the nonmoving party and draw
all reasonable inferences in that party’s favor. Reeves
v. Sanderson Plumbing Prods., 530 U.S. 133, 150-51
(2000).
However, the court need not, and will not, “scour
the record in search of a genuine issue of triable fact.”
Keenan v. Allan, 91 F.3d 1275, 1279 (9th Cir. 1996);
see also, White v. McDonnel-Douglas Corp., 904 F.2d
456, 458 (8th Cir. 1990) (the court need not “speculate
on which portion of the record the nonmoving party

Appendix 7a
relies, nor is it obliged to wade through and search the
entire record for some specific facts that might
support the nonmoving party’s claim”). The opposing
party must present significant and probative evidence
to support its claim or defense. Intel Corp. v. Hartford
Accident & Indem. Co., 952 F.2d 1551, 1558 (9th Cir.
1991). Uncorroborated allegations and “self-serving
testimony” will not create a genuine issue of material
fact. Villiarimo v. Aloha Island Air, Inc., 281 F.3d
1054, 1061 (9th Cir. 2002); T.W. Elec. Serv. V. Pac
Elec. Contractors Ass’n, 809 F. 2d 626, 630 (9th Cir.
1987).
IV. DISCUSSION
The City argues in their motion that this case is
not justiciable, and, in any event, the ordinance
regulates nonexpressive conduct. Dkt. # 26 at 13-19.
Plaintiffs claim in their motion that the ordinance
cannot survive any First Amendment analysis. Dkt. #
22.
A. Standing
On a motion for summary judgment, “a plaintiff
must establish that there exists no genuine issue of
material fact as to justiciability or the merits.” Dep’t
of Commerce v. U.S. House of Representatives, 525
U.S. 316, 329 (1999). Accordingly, a plaintiff must
support its allegations of injury by affidavit or
evidence of specific facts. Snake River Farmers’ Ass’n,
Inc. v. Dep’t of Labor, 9 F.3d 792, 795 (9th Cir. 1993).
Here, Plaintiffs assert that Wysingle suffered a
concrete injury to his speech rights, as he is unable to
solicit or receive bids for his rental property because
of the ordinance. Dkt. # 29 at 2. To show that he has
standing to seek an injunction, Wysingle filed a

Appendix 8a
declaration stating that he intended to use Rentberry
to advertise his property and would have done so but
for the ordinance. Id. at 7. Plaintiffs also claim that
Rentberry has standing because (i) it has a First
Amendment interest in disseminating its proprietary
software and (ii) it has third-party standing on behalf
of its users. Id. at 11-13.
In disputing standing, the City contends that
Wysingle is not, nor has he ever been, a member of
Rentberry; that he did not have a rental house ready
to list at the time the Complaint was filed; and that
he currently does not have a house ready to list on
Rentberry. Dkt. # 26 at 15; Dkt. # 27-8 at 13-14; Dkt.
# 31 at 1. Furthermore, because Wysingle rented out
his property after the lawsuit was filed, the City
argues that any potential claim he has is now moot.
Dkt. # 26 at 16-17. As for Rentberry, the City claims
that the ordinance only covers landlords and potential
tenants, and thus does not cause Rentberry any
injury. Id. at 17-18. According to the City, neither
plaintiff has standing.
To invoke the jurisdiction of the federal courts, a
plaintiff must establish standing, which consists of
three elements: (1) injury-in-fact; (2) causation; and
(3) redressability. Lujan v. Defs. of Wildlife, 504 U.S.
555, 560-61 (1992). Because “[c]onstitutional
challenges based on the First Amendment present
unique standing considerations,” plaintiffs may
establish injury in fact without first suffering a direct
injury from the challenged restriction. Lopez v.
Candaele, 630 F.3d 775, 783 (9th Cir. 2010); Ariz.
Right to Life Political Action Comm. v. Bayless, 320
F.3d 1001, 1006 (9th Cir. 2003).

Appendix 9a
When First Amendment plaintiffs sue before
violating a statute, the Ninth Circuit looks at several
factors in determining standing. These include
whether plaintiffs have shown a reasonable likelihood
that the government will enforce the challenged law
against them; whether plaintiffs have established,
with some degree of concrete detail, that they intend
to violate the challenged law; and whether the
challenged law is applicable to plaintiffs, either by its
terms or as interpreted by the government. Lopez, 630
F.3d at 786; see also Babbitt v. United Farm Workers
Nat’l Union, 442 U.S. 289, 298 (1979) (requiring
showing of “realistic danger”). Pleading the mere
existence of a statute, which may or may not ever be
applied to plaintiffs, is not sufficient to create a case
or controversy within the meaning of Article III. Scott
v. Pasadena Unified Sch. Dist., 306 F.3d 646, 657 (9th
Cir. 2002) (quoting Stoianoff v. Montana, 695 F.2d
1214, 1223 (9th Cir. 1983)). Rather, a plaintiff must
allege he or she “is immediately in danger of
sustaining some direct injury as the result of the
challenged official conduct and the injury or threat of
injury is both real and immediate, not conjectural or
hypothetical.” City of Los Angeles v. Lyons, 461 U.S.
95, 102 (1983) (internal quotation marks and citations
omitted). For injunctive relief, which Plaintiffs seek
here, there must be a showing of a real or immediate
threat of an irreparable injury. Cole v. Oroville Union
High Sch., 228 F.3d 1092, 1100 (9th Cir. 2000)
(internal quotations and citations omitted).
i. Wysingle
Wysingle argues the ordinance applies to landlords
like him and restricts his ability to solicit or receive
bids. Dkt. # 29 at 6-7. He claims this violates his First

Appendix 10a
Amendment speech rights. Id. Wysingle adds that the
declaration he submitted with the Complaint shows
his intent to use Rentberry’s bidding platform and
that the threat of enforcement is clear from the City’s
website. Id. (citing Clark v. City of Lakewood, 259 F.3d
996, 1006 (9th Cir. 2001)). Wysingle submits that
these facts, taken together, demonstrate that he has
standing for injunctive relief.
The Court does not agree. The facts demonstrate
that at the time the lawsuit was filed Wysingle was
not a member of Rentberry and his rental house was
under renovations. Dkt. # 30-1 at 4, 8. Even several
months into the lawsuit, Wysingle testified that he
could not say exactly when his rental home would be
available and the best he could do was speculate. Dkt.
# 30-1 at 3 (“I’m at the mercy of the contractors. They
are very busy right now, and so as soon as they finish,
I will list, I’m guessing by the end of the month.”). As
the Ninth Circuit has explained, “some day”
intentions without specificity do not support finding
an “actual or imminent” injury. Thomas v. Anchorage
Equal Rights Com’n, 220 F.3d 1134, 1140 (9th Cir.
2000). Accordingly, Wysingle’s expressed intention to
use bidding technology—if and when renovations are
complete on his rental property, or if and when he
joins Rentberry or some similar site—do not qualify as
a concrete plan. Lopez, 630 F.3d 775; Thomas, 220
F.3d at 1140 (explaining the landlords’ intent to
violate law prohibiting discrimination based on
marital status “if and when an unmarried couple
attempts to lease one of their rental property”
insufficient to confer standing).
Plaintiffs nonetheless claim that Ninth Circuit’s
decision in Clark v. City of Lakewood, 259 F.3d 996,

Appendix 11a
1006 (9th Cir. 2001), warrants finding that Wysingle
has standing here. The Ninth Circuit found in Clark
that a cabaret owner whose business closed due to an
ordinance had standing to seek an injunction. 259
F.3d at 1008. The alleged harm was actual and
imminent because, despite the cabaret closing, the
owner continued to hold all licenses needed to operate
and stated unequivocally that he would go back into
business if the ordinance were enjoined. Id.
The Court finds the facts here distinguishable
from those in Clark. The cabaret owner in Clark had
been operating a business at the time of ordinance,
had recently gone out of business because of the
ordinance, and stated unequivocally that he would go
back into business if the ordinance were enjoined. By
contrast here, at the time of the lawsuit, Wysingle had
never used a bidding platform to rent a property and
his lone rental property was under renovations with
no certain time for completion. Additionally, Wysingle
had not created an account on Rentberry or another
site that used bidding technology. Dkt. # 30-1 at 8 (“I
haven’t used Rentberry, so I don’t know how they lay
it out. . . . I’m not a member on the website, so I don’t
know what the layout is.”). Under these facts, the
Court concludes that Wysingle’s claimed injury is not
immediate and thus insufficient to seek injunctive
relief.
ii. Rentberry
Rentberry claims that it has standing in its own
right as well as third-party standing on behalf of its
users. The Court disagrees because Rentberry has not
shown injury in fact. Both traditional and third-party
standing require a plaintiff to show an injury in fact.
See, e.g., Sec. of State of Md. v. Joseph H. Munson Co.,

Appendix 12a
Inc., 467 U.S. 947 (1984) (explaining that the crucial
issue is whether the plaintiff satisfies the “injury-infact” requirement before asserting the rights of thirdparty). While third-party standing generally requires
some hindrance to a third-party in protecting its own
rights, the Supreme Court has expressed a reluctance
to strictly adhere to this requirement in the First
Amendment context. Id. Nonetheless, the Supreme
Court still requires an injury to the purported
plaintiff. Id. There is no evidence before the Court to
conclude that Rentberry meets this requirement.
On its face, the ordinance only applies to landlords
and tenants and thus does not regulate Rentberry’s
conduct. See Lopez, 630 F.3d at 788 (indicating that
claims of future harm lack credibility when the
challenged speech restriction by its terms is not
applicable to the plaintiffs, or the enforcing authority
has disavowed the applicability of the challenged law
to the plaintiffs). The City’s interpretation of the
ordinance further confirms its inapplicability to
Rentberry. Dkt. # 28, ¶¶ 5, 6. Rentberry explains,
however, that its auctioning technology “cannot be
turned off,” and so it chose not to open its website to
the Seattle market. Dkt. # 29 at 12. But again, the
ordinance does not restrict Rentberry from operating
within the city limits and self-censorship alone does
not constitute injury for standing purposes. See Laird
v. Tatum, 408 U.S. 1, 13 (1972) (subjective chill is not
a substitute for objective harm or threat of future
harm). Rentberry’s other purported injury—the right
to disseminate its propriety software—is likewise not
prohibited by the ordinance and is not supported by
the facts. Indeed, Rentberry fails to specify by
declaration or otherwise any of its business
relationships or users impacted by the ordinance. Sec.

Appendix 13a
of State of Md., 467 U.S. at 950-51 (third-party
standing met where plaintiff identified specific
customers impacted by state regulation and the
impact of the regulation on the parties’ business
relationships). Rentberry only declares that “Seattle
is one of the key markets . . . since 42% of residents
rent their homes.” Dkt. # 22-5 at 4. The Court finds
Rentberry’s injury is speculative at best.
Finally, Rentberry makes one last argument in
support of standing—that it was specifically targeted
by the ordinance and thus it is permitted to seek
redress. Dkt. # 29 at 13 (citing Melendres v. Arpaio,
695 F.3d 990, 999 (9th Cir. 2012)). However, this
argument fails for the reason as the others do:
Rentberry must still demonstrate an injury tied to the
government regulation. See Melendres, 695 F.3d at
(affirming plaintiffs had standing to bring
constitutional claim where government policy
targeted them for seizure in violation of the Fourth
Amendment). For the reasons stated, the Court finds
the injury in fact requirement has not been met.
Because Rentberry fails to show that it has standing
as a matter of law, its claim must be dismissed.
B. First Amendment
Even assuming Plaintiffs had standing, their First
Amendment claim would fail. Plaintiffs argue that the
ordinance bans protected speech. The relevant
provision reads: “Landlords and potential tenants are
prohibited from using rental housing bidding
platforms for real property located in Seattle city
limits.” SMC § 7.24.090.A. Plaintiffs argue the
ordinance infringes on their First Amendment right to
communicate prices or post advertisements on a “rentbidding website.” Dkt. # 29 at 13.

Appendix 14a
“[R]estrictions on protected expression are distinct
from restrictions on economic activity or, more
generally, on nonexpressive conduct.” Sorrell v. IMS
Health Inc., 564 U.S. 552, 567 (2011). Accordingly,
“the First Amendment does not prevent restrictions
directed at commerce or conduct from imposing
incidental burdens on speech.” Id. The “threshold
question is whether conduct with a ‘significant
expressive element’ drew the legal remedy or the
ordinance has the inevitable effect of ‘singling out
those engaged in expressive activity.’” Int’l Franchise
Ass’n, Inc. v. City of Seattle, 803 F.3d 389, 408 (9th
Cir. 2015).
The Court finds the ordinance regulates conduct,
not speech. It prohibits the use of a bidding platform
to conduct a rental transaction, an activity which
courts in this circuit have found to lack a significant
expressive element. See, e.g., Airbnb, Inc. v. City and
Cnty. of San Francisco, 217 F.Supp.3d 1066, 1076
(N.D. Cal. 2016) (finding short-term rental
transaction lacks significant expressive element);
Homeaway.com, Inc. v. City of Santa Monica, 2018
WL 1281772, at *5 (C.D. Cal. Mar. 9, 2018) (same); see
also Int’l Franchise Ass’n, Inc., 803 F.3d at 409 (“A
business agreement or business dealings between a
franchisor and a franchisee is not conduct with a
‘significant expressive element.’”). To be sure, the
ordinance makes clear that “[m]erely publishing a
rental housing advertisement” does not transform a
person or website to a “rental housing bidding
platform.” Dkt. #22-1 at 6. It is also clear from the
record that the ordinance was “not motivated by a
desire to suppress speech” and does not have “the
effect of targeting expressive activity.” Int’l Franchise
Ass’n, Inc., 803 F.3d at 409; see also Simon &

Appendix 15a
Schuster, Inc. v. Members of N.Y. State Crime Victims
Bd., 502 U.S. 105 (1991) (noting movies, books,
magazine articles, tape recordings as examples of
classic expressive activity). Ultimately, the Court
finds that the ordinance does not meet threshold
conditions to require additional First Amendment
analysis. The City is entitled to summary judgment.
V. CONCLUSION
For the reasons stated above, the Court GRANTS
Defendant’s motion and DENIES Plaintiffs’ motions.
Dkt. ## 22, 26.
DATED this 15th day of March, 2019.
s/ Richard A. Jones
The Honorable Richard A. Jones
United States District Judge

Appendix 16a

FILED
APR 28 2020
MOLLY C. DWYER,
CLERK
U.S. COURT OF APPEALS
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
RENTBERRY, INC., a
Delaware corporation;
DELANEY WYSINGLE,
an individual,
Plaintiffs-Appellants,
v.
CITY OF SEATTLE, a
Washington municipal
corporation,

No. 19-35308
D.C. No. 2:18-cv-00743RAJ
Western District of
Washington, Seattle
ORDER

Defendant-Appellee.

Before: IKUTA, R. NELSON, and HUNSAKER,
Circuit Judges.
Appellants’ Motion for Supplemental Briefing on
Mootness (Dkt. No. 46) is hereby GRANTED.
Appellants shall file their brief not exceeding 3600
words on or before May 28, 2020. Appellees shall file
an answering brief not exceeding 3600 words on or
before June 29, 2020. Appellants may then file a reply

Appendix 17a
brief not exceeding 1800 words on or before July 13,
2020.
In particular, the parties should address whether
Appellants have “a reasonable expectation that [the
City of Seattle] will reenact the challenged provision
or one similar to it,” Bd. of Trustees of Glazing Health
& Welfare Tr. v. Chambers, 941 F.3d 1195, 1199 (9th
Cir. 2019) (en banc),as well as the impact of the
Supreme Court’s recent decision in New York State
Rifle & Pistol Ass’n v. City of New York, 590
U.S.____(2020).

Appendix 18a
No. 19-35308
________________________
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
Rentberry, Inc., and Delaney Wysingle,
Plaintiffs – Appellants,
v.
The City of Seattle,
Defendant – Appellee.
_______________________________
On Appeal from the United States District Court
for the Western District of Washington
Honorable Richard A. Jones, District Judge
_______________________________
APPELLANTS’ SUPPLEMENTAL BRIEF ON
MOOTNESS
_______________________________
*****
INTRODUCTION
Pursuant to this Court’s order dated April 28,
2020, Appellants submit this supplemental brief
explaining why the pending lawsuit was not mooted
by Respondent City of Seattle’s voluntary actions. The
City twice renewed the rent bidding moratorium
during the pendency of this lawsuit, but once briefing
was complete and the case set for oral argument, the
City repealed the moratorium and at the same time
enacted a replacement ordinance that contemplates

Appendix 19a
further regulation of rent-bidding platforms. Such
actions cannot moot this constitutional challenge. See
Bd. of Trustees of Glazing Health & Welfare Tr. v.
Chambers, 941 F.3d 1195, 1199 (9th Cir. 2019) (en
banc). Moreover, the Supreme Court’s recent decision
in New York State Rifle & Pistol Ass’n (NYSRPA) v.
City of New York, 140 S. Ct. 1525 (2020), and Federal
Rule of Civil Procedure 54(c) support continuation of
this lawsuit because Appellants have not received all
the relief sought in their complaint.
I.

SEATTLE HAS CREATED A ROADMAP
TO FUTURE REGULATION OF RENTBIDDING PLATFORMS OF THE SAME
OR SIMILAR NATURE

A case “becomes moot only when it is impossible for
a court to grant any effectual relief whatever to the
prevailing party. . . . As long as the parties have a
concrete interest, however small, in the outcome of the
litigation, the case is not moot.” Chafin v. Chafin, 568
U.S. 165, 172 (2013) (emphasis added). To establish
mootness, defendants have a heavy burden to meet
Chafin’s “demanding standard.” Mission Product
Holdings, Inc. v. Tempnology, LLC, 139 S. Ct. 1652,
1660 (2019); see also Los Angeles County v. Davis, 440
U.S. 625, 631 (1979) (jurisdiction “may abate if the
case becomes moot because it can be said with
assurance there is no reasonable expectation that the
alleged violation will recur . . . and interim relief or
events have completely and irrevocably eradicated the
effects of the alleged violation”) (cleaned up). Unless
Seattle can prove that it is “absolutely clear that the
allegedly wrongful behavior could not reasonably be
expected to recur,” Parents Involved in Cmty. Schs. v.
Seattle Sch. Dist. No. 1, 551 U.S. 701, 719 (2007), its

Appendix 20a
voluntary
repeal
and
replacement
of
the
unconstitutional rent-bidding ban does not deprive
this Court of Article III jurisdiction over this
constitutional challenge.
The premise underlying the “absolutely clear”
standard is not that defendants may secretly plan to
resume the challenged conduct at the first
opportunity, but that they are free to reinitiate it in
the future (whether they planned to do so all along or
not). That discretion creates the continuing harm and
the potential waste of judicial resources—the
“argument from sunk costs” to which the Supreme
Court has attributed the “absolutely clear” standard.
Friends of the Earth, Inc. v. Laidlaw Env. Svcs. (TOC),
Inc., 528 U.S. 167, 191–93 (2000) (no mootness due to
voluntary cessation even though “the entire
incinerator facility in Roebuck was permanently
closed, dismantled, and put up for sale, and all
discharges from the facility permanently ceased.”).
Although repeal of the previous ordinance may
trigger concerns over mootness, Chambers, 941 F.3d
at 1197, the case is not moot if “there is a reasonable
expectation that the legislative body is likely to enact
the same or substantially similar legislation in the
future.” Id. Seattle’s reenactment of the rent-bidding
ban need not be a “virtual certainty;” there need only
be “a reasonable expectation of reenactment” as
shown by the record. Id. at 1199.
The legislative history of the repeal ordinance and
other factors demonstrate that Seattle is prepared to
reenact the ban or similar legislation. It does not
matter that the ordinance enacted after the study may
be somewhat less oppressive. Ne. Fla. Chapter of
Associated General Contractors of America v. City of

Appendix 21a
Jacksonville, Fla., 508 U.S. 656, 662 (1993) (no
mootness where “new ordinance may disadvantage
[plaintiffs] to a lesser degree than the old one” if they
are disadvantaged in “the same fundamental way”).
“If the amended ordinance threatens to harm a
plaintiff in the same fundamental way—even if to a
lesser degree—the plaintiff will still have a live claim
for prospective relief.” Cuviello v. City of Vallejo, 944
F.3d 816, 824 (9th Cir. 2019) (First Amendment case).
The Court is “particularly wary of legislative changes
made in direct response to litigation.” Id. 1
The First Amendment forbids speech restrictions
absent some evidence of harm. Thompson v. Western
States Medical Center, 535 U.S. 357, 373 (2002)
(“regulating speech must be a last—not first—
resort”). The first and second moratoria banned
communication on rent-bidding platforms for the
express purpose of conducting a study to determine
whether the City could identify such harm. Plaintiffs’
Motion for Summary Judgment, Exh. 1, ECF 22-1 at
5; ER 18. By banning communication on the
platforms, however, Seattle ensured that its “study”
had no relevant market information on which to base
its conclusions. Ord. 126053 (“WHEREAS, the Office
of Housing transmitted its study on rent bidding
(‘Rent Bidding Study’) in July 2019, and found that
because of the brief period of operation of the rental
housing bidding platforms in Seattle, the effects of
1 The notion that government should enjoy special deference as
to their assertions to refrain from reinstating constitutionally
offensive conduct runs counter to the very premise of Section
1983, which was enacted because Congress “realized that state
officers might, in fact, be antipathetic to the vindication of
[constitutional] rights.” Mitchum v. Foster, 407 U.S. 225, 242
(1972).

Appendix 22a
these platforms on the Seattle housing market and on
equitable access could not be analyzed”).
Despite the lack of information underlying the
July 2019 study, Seattle’s Office of Housing made
several recommendations that served as the basis for
the current ordinance: “Modify [SMC 7.24.090, the
moratorium] to be effective in perpetuity, or until
rental
bidding
platforms
can
affirmatively
demonstrate compliance with all federal, state and
local laws, and fair and equitable operations.” Decl. of
Blevins to Supp. Record, Exh. 1 at 11–12 (emphasis
added). The intent to enact future regulation is clear,
unless
rent-bidding
platforms 2
“affirmatively
demonstrate” compliance with the law and Seattle’s
undefined demand for “fair and equitable operations.”
Id. Seattle explicitly contemplates amendments to the
city’s Unfair Housing Practices to “include
requirements for rental bidding platforms to ensure
compliance and equitable access such as: HCV
[Housing Choice Voucher] accessibility; anonymous
profiles; accessible formats for people with
disabilities; multiple language support; [and] listed
screening criteria.” Id. The study further recommends
that Seattle “[m]odify rental bidding platforms
operations to allow HCV holders to be competitive in
the rent auction process.” 3 Current Ordinance
126053, § 6, adopts the Housing study’s
2 Appellant Rentberry is one such platform. Non-parties
Biddwell
(https://www.biddwell.com/)
and
LiveOffer
(https://propertyconnect.com/liveoffer-rental) also offer rentbidding platforms to facilitate landlord-tenant communications
and would have their communications in Seattle silenced or
otherwise curtailed by Seattle’s past and recommended future
regulation.
3 “Competitive” is undefined.

Appendix 23a
recommendation to urge all rental bidding platforms
to post the “Seattle Open Housing Poster” on their
websites. In short, Seattle’s Office of Housing
recommends mandating how a private company
communicates with its users and facilitates
communications among users. The sponsor of the
rent-bidding ban legislation is receptive to these
recommendations. Seattle City Council, Finance &
Housing Committee, at 1:09:01–12 (Mar. 3, 2020) (Bill
sponsor Teresa Mosqueda explained that the city
needs to “get ahead of the technology” to “ensure our
values are met.”). 4
The new ordinance, Ordinance 126053, 5 plainly
was enacted in response to this case. The city staff
report specifically references this pending litigation in
discussing the substance and purpose of the new
ordinance, Seattle City Council Central Staff, CB
119752: Repealing a prohibition on use of rental
housing bidding platforms (CB 119752 Staff Report)
at 3 (Mar. 2, 2020). 6 The staff report concludes:
If the data shows that the platforms are
functioning for bidding purposes and if
there is an impact on equitable access to
rental housing, then the Council via CB
119752 would request that [Office of
Housing] and [Office of Civil Rights]
work with the Council to determine
whether and how the recommendations
outlined in the Rent Bidding Study
http://www.seattlechannel.org/videos?videoid=x111738&
Mode2=Video.
5 http://clerk.ci.seattle.wa.us/search/ordinances/126053.
6
https://seattle.legistar.com/View.ashx?M=F&ID=8169362&
GUID=13F261E3-9B02-4F1C-AFEE-B291A12E5B40.
4

Appendix 24a
should be implemented, including
mitigating
any
unintended
consequences.
Id. The current ordinance thus seeks to obtain data to
determine whether communication between landlords
and tenants via rent-bidding platforms “are
functioning for bidding purposes” and has “an impact
on equitable access to rental housing.” Ord. 126053, §
5. “Impact” and “equitable” are undefined by the city,
giving it plenty of leeway for further regulation. At
bottom, this language suggests that Seattle retains its
view that speech rights exercised by landlords and
prospective tenants are a privilege that the City can
micromanage, rather than fundamental, individual
rights that are constitutionally protected. 7 See Trinity
Lutheran Church of Columbia, Inc. v. Comer, 137 S.
Ct. 2012, 2019 n.1 (2017) (no mootness where
voluntary cessation “does nothing to remedy the
source of the . . . original policy” that treats certain
actions as a privilege granted by the government
rather than a constitutional right).
While the City takes the position that the new
ordinance moots the claims here, it has never once
The city’s reenactment of the ban is cleared by the Supreme
Court’s denial of certiorari in Yim v. City of Seattle. The first and
second ordinances’ findings described Seattle’s concern that rentbidding platforms were incompatible with its “first-in-time”
ordinance demanding that landlords offer a 48-hour right of first
refusal to lease rental properties to applicants in the order in
which they apply. When Rentberry was filed, a Washington trial
court had invalidated the first-in-time ordinance as violating the
state constitution. The Washington Supreme Court subsequently
reversed, and the U.S. Supreme Court denied certiorari. Yim v.
City of Seattle, 194 Wash. 2d 651 (2019), cert. denied, No. 191136, 2020 WL 1906600 (U.S. April 20, 2020).
7

Appendix 25a
taken the position, either in filings before this Court
or in public statements, that it believes that the recent
changes to its ordinance are constitutionally required.
Resp. to Plaintiffs-Appellants’ Mot. for Supp. Briefing
on Mootness, docket entry 47, at 8 n.8 (Apr. 17, 2020)
(“To be clear, for the reasons previously briefed, the
City maintains that the recently-repealed 7.24.090
was constitutionally implemented.”). Indeed, the
ordinance places the onus on rent-bidding platform
companies to proactively “show evidence of
compliance and considerations of current law” before
Seattle will allow communication via rent-bidding
platforms. See CB 119752 Staff Report, supra at 3
(“[A]llowing these platforms to function without
submitting an affirmative plan to comply with fair
housing laws as recommended in the report may
increase the risk that violations of those laws occur.”).
The clear import of the ordinance is that Seattle
plans to reinstate its ban (or similar speechrestricting regulations on rent-bidding platforms)
after it generates the necessary data. 8 See Chambers,
941 F.3d at 1198; Ne. Fla. Chapter of Associated Gen.
Contractors of Am. v. City of Jacksonville, 508 U.S.
656, 662 n.3. (1993) (repealing an old law in favor of a
new one that is “sufficiently similar” and
“disadvantages [plaintiffs] in the same fundamental
The type of data sought by the City is unclear. Appellants’
counsel submitted Public Records Act requests to the Office of
Housing and the Office of Civil Rights seeking disclosure of the
methodology of both previous tests and studies and tests and
studies currently being conducted. The requests are attached as
Exhibit A to Plaintiffs-Appellants Motion for Supplemental
Briefing. The Office of Civil Rights responded on April 21, 2020,
that it has no responsive documents. The Office of Housing
advises that it will respond by June 16, 2020.
8

Appendix 26a
way,” will not moot a plaintiff’s claims). Indeed,
Council member Teresa Mosqueda, the bill’s sponsor,
expressed her desire for an interim report in
anticipation of taking possible regulatory action well
before the report deadline established by the
ordinance. Seattle City Council, Finance & Housing
Committee, at 1:13:22–14:28 (Mar. 3, 2020) (“If it
turns out before June of next year that we can see that
things are escalating out of control . . . we have to be
vigilant and recognize our access to housing laws that
we have on the books and the principles of the city to
make sure that people have access to affordable
housing is so strong that we do want to be vigilant and
so . . . this committee may be interested in an interim
report.”).
Public documents and legislative history
demonstrate that Seattle remains committed to
regulating communication on web-based rent-bidding
platforms. The particular parameters of the
regulation make little difference to the key issues
presented and fully briefed in this litigation. Seattle’s
voluntary cessation cannot establish that this case is
moot.
II.

THIS CASE IS NOT MOOT BECAUSE
PLAINTIFFS-APPELLANTS HAVE NOT
RECEIVED ALL THE RELIEF SOUGHT
IN THEIR COMPLAINT

The prayer for relief in Appellants’ complaint
sought a declaration that Seattle’s ban on rentbidding platforms violated Rentberry’s and Wysingle’s
freedom of speech protected by the First and
Fourteenth Amendments, an injunction forbidding
enforcement of the ordinance; costs and attorneys’
fees; and “other such additional relief as may be just

Appendix 27a
and proper.” This last request is not mere boilerplate;
it encompasses other relief to which a prevailing party
would be justified under the law. Z Channel Ltd.
P’ship v. Home Box Office, Inc., 931 F.2d 1338, 1341
(9th Cir. 1991) (a party does “not foreclose relief in
damages by failing to ask for them”); Western District
Council v. Louisiana Pacific Corp., 892 F.2d 1412,
1416–17 (9th Cir. 1989) (case not moot where court
could grant remedy of rescission even though plaintiff
had not requested it).
While Appellants’ request for injunctive relief may
turn out to be unnecessary, all other types of relief
may still be awarded by this Court. As to the prayer
for declaratory relief, in McCormack v. Herzog, 788
F.3d 1017, 1025 (9th Cir. 2015), this Court considered
the effect of such a prayer in syllogistic fashion: (1) the
declaratory relief that certain statutes were facially
unconstitutional remained available; (2) the plaintiff
continued to assert that the statutes were
unconstitutional; and (3) the defendant continued to
assert that the statutes were constitutional. Id.
(quoting the district court). Although the defendant
offered immunity to the plaintiff from prosecution, id.
at 1024, this Court held that “there still exists ‘a
substantial controversy, between parties having
adverse legal interests, of sufficient immediacy and
reality to warrant the issuance of a declaratory
judgment.’” Id. at 1026 (citations omitted). See also
Galassini v. Town of Fountain Hills, No. CV-1102097-PHX, 2013 WL 5445483, at *15 (D. Ariz. Sept.
30, 2013) (First Amendment challenges to campaign
finance statutes seeking relief of nominal damages
and attorneys’ fees could not be mooted although
statutes’ repeal obviated need for injunctive relief).

Appendix 28a
The Supreme Court’s short per curiam decision in
NYSRPA, 140 S. Ct. 1525, offers minimal guidance in
how to analyze the effect of subsequent legislation on
mootness but strongly suggests that any damage
claim—including for nominal damages—prevents
mootness. After the Court granted certiorari in
NYSRPA, the state amended its firearm licensing
statute and the city amended its related rule to permit
transportation of firearms “in the precise manner”
requested in the petitioner’s prayer for relief in their
complaint. Without further analysis, the Court held
that the petitioner’s claims for declaratory and
injunctive relief with respect to the old rule were
moot. Id. at 1526. However, the Court noted that a
claim for damages caused by the old rule would not be
mooted by the enactment of new legislation. Because
the petitioners had not requested damages initially,
the Court vacated the decision below and remanded
for the lower courts to consider whether the
petitioners could add such a claim. Id.
Justices Alito, Gorsuch, and Thomas issued a
dissenting opinion. They would have rejected the
suggestion of mootness for several reasons, but
primarily because the petitioners did not receive all
the relief they sought—they perceived no reason to
remand on that issue. The operative complaint’s
prayer for relief in NYSRPA sought to enjoin New
York’s travel restrictions, a declaration that the
challenged
restrictions
violated
the
Second
Amendment, attorneys’ fees, costs of suit, and “[a]ny
such further relief as the [c]ourt deems just and
proper.” (citation omitted). Based on this last claim for
relief, the dissenters identified a “separate and
independent reason” that the case is not moot: should
the petitioners prevail, they would be entitled to

Appendix 29a
damages under 42 U.S.C. § 1983 even without
expressly requesting them. Id. at 1535. The dissent’s
opinion on this point, which was not addressed in the
per curiam opinion, reflects settled law.
When a plaintiff’s constitutional rights have been
violated, nominal damages may be awarded without
proof of any additional injury. See Carey v. Piphus,
435 U.S. 247, 266 (1978); Memphis Community School
Dist. v. Stachura, 477 U.S. 299, 308 n.11 (1986). The
Ninth Circuit expands this discretionary award to an
entitlement. “In this Circuit, nominal damages must
be awarded if a plaintiff proves a violation of his
constitutional rights.” George v. City of Long Beach,
973 F.2d 706, 708 (9th Cir. 1992) (emphasis added)
(nominal damages “must” be awarded as “symbolic
vindication” of the plaintiff’s constitutional claim
based on law enforcement officers’ warrantless entry
of his house, regardless of whether this constitutional
violation caused any harm).
The general request for relief at the end of many
complaints (e.g., “such additional and further relief
which the court deems just and proper”) provides
sufficient notice for relief not specifically requested in
the complaint. Fed. R. Civ. P. 54(c); Sheet Metal
Workers’ Int’l Ass’n Local 19 v. Herre Bros., Inc., 201
F.3d 231, 249 (3d Cir. 1999) (awarding specific
performance as “just and proper” relief); Fed. Sav. and
Loan Ins. Corp. v. Texas Real Estate Counselors, Inc.,
955 F.2d 261, 269–70 (5th Cir. 1992) (prejudgment
interest included in “any other relief, both special and
general, to which [plaintiff] may be justly entitled.”).
Furthermore, so long as a complaint gives notice of a
plaintiff’s claims and their grounds, omissions in a
prayer for relief are no barrier to redress of

Appendix 30a
meritorious claims. Holt Civic Club v. City of
Tuscaloosa, 439 U.S. 60, 66 (1978); Pension Benefit
Guar. Corp. v. East Dayton Tool & Die Co., 14 F.3d
1122, 1127 (6th Cir. 1994) (“If a pleading provides a
defendant notice of the plaintiff’s claims and the
grounds for the claims, omissions in a prayer for relief
do not bar redress of meritorious claims.”) (citations
omitted); State Farm Mut. Auto. Ins. Co. v. Coates, 933
F.2d 1015, *1 (1991), quoting Doe v. United States
Dep’t of Justice, 753 F.2d 1092, 1104 (D.C. Cir. 1985)
(“it need not appear that the plaintiff can obtain the
specific relief demanded as long as the court can
ascertain from the face of the complaint that some
relief can be granted”); Webster v. Mozilo, Case No. CV
08-6579-VBF(SHx), 2009 WL 10698955 *3 (C.D. Cal.
July 23, 2009) (awarding rescission as “other relief the
court deems appropriate”). 9
In Klein v. Laguna Beach, 810 F.3d 693, 696–97
(9th Cir. 2016), this Court awarded nominal damages
and attorneys’ fees after the plaintiff’s First
Amendment lawsuit achieved “future-oriented goals”
by prompting the defendant city to repeal challenged
aspects of an ordinance regulating sound trucks. It did
not matter that he did not seek compensatory
Although Arizonans for Official English v. Arizona, 520 U.S. 43,
71 (1997), noted in dicta that a claim for damages “asserted solely
to avoid certain mootness” should be inspected closely, such
inspection reveals no reason that nominal damages could not be
awarded to Appellants in this case should they ultimately
prevail. “Nothing blocks an award of nominal damages from a
city.” NYSRPA, 140 S. Ct. at 1538 (Alito, J., dissenting). While
the amount of nominal damages is trivial by definition, the
amount of attorneys’ fees to which Appellants may be entitled is
significant and § 1988 makes these fees available to ensure a
robust defense of civil rights.

9

Appendix 31a
damages. A claim for nominal damages precludes
mootness, Bernhardt v. County of Los Angeles, 279
F.3d 862, 872 (9th Cir. 2002), even if related claims
for injunctive relief are rendered moot. Lokey v.
Richardson, 600 F.2d 1265, 1266 (9th Cir. 1979). If
“there is any chance of money changing hands,” no
matter how “uncertain or even unlikely,” the case is
not moot. Mission Product Holdings, 139 S. Ct. at
1660; NYSRPA, 140 S. Ct. at 1537 (Alito, J.,
dissenting) (The “question is not whether petitioners
would actually succeed in obtaining such damages or
whether their loss was substantial. If there is a
possibility of obtaining damages in any amount, the
case is not moot.”).
CONCLUSION
Seattle has steadfastly and successfully
defended its rent-bidding platform ban without
suggesting any doubts about its constitutionality or
wisdom. Only after this case was fully briefed and set
for oral argument in this Court did Seattle
acknowledge that it passed the previous ordinances
with no justification whatsoever and, seeking time to
generate that justification, now seeks dismissal. The
case is not moot and dismissal would be a waste of
judicial resources and thwart the public interest in
having the legality of the rent-bidding platform ban
settled. See United States v. W.T. Grant Co., 345 U.S.
629, 632 (1953).
DATED: May 28, 2020.

Respectfully submitted,

s/ ETHAN W. BLEVINS
*****
Attorneys for Plaintiffs – Appellants

Appendix 32a
No. 19-35308
________________________
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
RENTBERRY, INC., a Delaware Corporation; and
DELANEY WYSINGLE, an Individual,
Plaintiffs – Appellants,
v.
THE CITY OF SEATTLE, a Washington Municipal
corporation,
Defendant – Appellee,
_______________________________
Appeal from the United States District Court
for the Western District of Washington
Case No. 2:18-cv-00743RAJ
_______________________________
SUPPLEMENTAL BRIEF OF APPELLEE CITY
OF SEATTLE ON THE ISSUE OF MOOTNESS
_______________________________
*****
I. INTRODUCTION
This litigation is a case study in civil procedure –
may Plaintiffs-Appellants (“Appellants”) maintain
their appeal from the dismissal of their case due to
lack of standing (on grounds that “Wysingle’s claimed
injury [was] not immediate and thus insufficient to
seek injunctive relief” and Rentberry had no “injury in
fact”) (ER 07), when the underlying ordinance at issue
has been affirmatively repealed, rendering the case

Appendix 33a
moot? The case is moot because Appellants are no
longer even arguably impacted by the repealed
ordinance and there is no substantial likelihood that
the City will reimpose a “moratorium” on rental
bidding platforms. “While the doctrines of standing
and ripeness focus on the suit’s birth, the doctrine of
mootness focuses attention on the suit’s death.”13B
Charles Alan Wright, Arthur R. Miller & Edward H.
Cooper, Federal Practice and Procedure § 3533.1, at
735–37.
There is no reasonable expectation that the City
will enact the challenged provision or one similar to it.
The City affirmatively repealed the rent-bidding
platform prohibition and any future regulation is
wholly conditional on (1) the data actually showing an
impact on equitable access to rental housing and (2)
future work with the Office for Civil Rights and the
Office of Housing to determine whether and how the
recommendations adopted from the Rent Bidding
Study should be implemented. None of the possible
regulations
in
the
Repeal
Ordinance
are
“substantially similar” to or a “lesser degree” of the
challenged moratorium. While Appellants conclude:
“[t]he particular parameters of the regulation make
little difference to the key issues presented and fully
briefed in this litigation”(Appellants’ Supplemental
Brief on Mootness (“Mootness Brief”), Dkt. No. 50, at
9), the City respectfully submits that the particular
parameters matter greatly – the Repeal Ordinance
does not contemplate reinstating a ban or
moratorium.
Additionally, for the first time, Appellants argue a
claim for nominal damages in a bid to avoid mootness,
citing the dissent in New York State Rifle & Pistol

Appendix 34a
Ass’n v. City of New York (“NYSRPA”). However, in
NYSRPA the Court did not alter the legal landscape
discouraging a last-minute bid for nominal damages
to avoid mootness. Ninth Circuit precedent recognizes
that “bootstrapping restitution into an ancillary
prayer for relief at this stage of the litigation runs
afoul of binding Ninth Circuit law.” Bain v. California
Teachers Association, 891 F.3d 1206 (2018). As such,
this case should be dismissed as moot.
II. FACTS
Appellants brought suit seeking declaratory and
injunctive relief, enjoining The City of Seattle from
enforcing Seattle Municipal Code (SMC) 7.24.090.
ER03.
SMC 7.24.090(C), at issue in this case – referred to
by Appellants as “the moratorium” –was set to sunset
by its own terms on July 17, 2020. SA007; SMC
7.24.090(B).
The City Council repealed SMC 7.24.090 on March
9, 2020, and submitted the repeal for the Mayor’s
signature on that same day 1. On March 13, 2020, the
Mayor signed the repeal, which became fully effective
on April 12, 2020. Therefore, as of April 12, 2020,
there is no barrier to using rental bidding platforms
in the Seattle market.
As part of the Repeal Legislation, City Council
“request[ed] that the Office of Housing [. . .] collect
data to track whether rental housing bidding
platforms are functioning for bidding purposes or only
1
The full repeal ordinance and legislative history (“Repeal
Ordinance” or “Repeal Legislation”) are available at:
http://seattle.legistar.com/LegislationDetail.aspx?ID=4347682&
GUID=BBF4AC18-6093-4F74-8700-2C43F7881148

Appendix 35a
for advertising or other non-bidding functions, to
determine whether the use of the platforms in Seattle
is having an impact on equitable access to Seattle’s
rental housing market. The Council requests the
Office of Housing provide the results of its data
collection and analysis by June 1, 2021.” Id. at Section
3.
Additionally, City Council requested “that the
Office for Civil Rights conduct testing to determine if
the use of the rental housing bidding platforms for
bidding purposes is in compliance with SMC 14.08.
The Council requests the Office for Civil Rights
provide the results of testing by June 1, 2021.” Id. at
Section 4.
Finally, City Council requested that “if the data
has shown that the platforms are functioning for
bidding purposes and there is an impact on equitable
access to rental housing, the Office for Civil Rights
and the Office of Housing work with Council to
determine whether and how the recommendations
outlined in the Rent Bidding Study should be
implemented, including mitigating any unintended
consequences.” Id. at Section 5 (emphasis supplied).
The potential relevant recommendations of the
Rent Bidding Study are outlined in the ordinance
itself and include: investigation of compliance with
Seattle’s
“first-in-time”
tenant
screening
requirements; analysis of the effects on landlords and
tenants; compliance with provisions of the Residential
Landlord-Tenant Act and other Washington State
laws; and recommendations that rental housing
bidding platforms should show evidence of compliance
and considerations of current law, that rental bidding
platforms affirmatively demonstrate compliance with

Appendix 36a
all federal, state, and local laws as well as
consideration of fairness and equity; and that the
Seattle Municipal Code’s regulation of unfair housing
practices be modified to include requirements that
rental bidding platforms ensure compliance and
equitable access for those persons with housing choice
vouchers, and make operations competitive for those
with vouchers; anonymize user profiles; make
platforms accessible to persons with disabilities;
provide multiple language support; add a requirement
to list screening criteria; and require that an Open
Housing Poster be posted on all platforms. Repeal
Ordinance.
III. ARGUMENT
The City of Seattle has affirmatively repealed
SMC 7.24.090 prior to its natural sunset date of July
17, 2020. Repeal Ordinance.
An action is moot when the issues presented are no
longer live, and the mootness inquiry asks whether
there is anything left for the court to do. Western Oil
& Gas Ass’n v. Sonoma Cnty., 905 F.2d 1287, 1290
(9th Cir. 1990). Here, where Appellants sought
declaratory and injunctive relief, enjoining The City
of Seattle from enforcing SMC 7.24.090, there is no
further relief this Court can provide as SMC 7.24.090
no longer exists.
A. THERE IS NO REASONABLE LIKELIHOOD
THAT A MORATORIUM WILL BE
REIMPOSED.
1. There is no roadmap, or evidence of a
future intent, to reenact the challenged
moratorium on rent-bidding platforms.

Appendix 37a
In Board of Trustees, this Court, en banc,
recognized that governmental action taken to repeal
legislation was more likely to render a case moot than
private action.
However, we treat the voluntary cessation
of challenged conduct by government
officials “with more solicitude... than
similar action by private parties.” Am.
Cargo Transp., Inc. v. United States, 625
F.3d 1176, 1180 (9th Cir. 2010) (internal
quotation marks omitted) (“[W]e presume
the government is acting in good faith.”).
For this reason, the repeal, amendment, or
expiration of challenged legislation is
generally enough to render a case moot
and appropriate for dismissal.
Board of Trustees of Glazing Health and Welfare
Trust v. Chambers, 941 F.3d 1195, 1198.
In fact, the primary holding of Board of Trustees
was to:
join the majority of our sister circuits in
concluding that legislative actions
should not be treated the same as
voluntary cessation of challenged acts by
a private party, and that we should
assume that a legislative body is acting
in good faith in repealing or amending a
challenged legislative provision, or in
allowing it to expire. Therefore, in
determining whether a case is moot, we
should presume that the repeal,
amendment, or expiration of legislation
will render an action challenging the

Appendix 38a
legislation moot, unless there is a
reasonable
expectation
that
the
legislative body will reenact the
challenged provision or one similar to it.
Id. at 1199 (emphasis added).
While a party challenging the presumption of
mootness need not show that enactment of the same
or similar legislation is a “virtual certainty,” the
reasonable expectation of enactment cannot be based
on speculation, as it is here. Id.
The precedents cited by Appellants are all
distinguishable. In City of Mesquite v. Aladdin’s
Castle, Inc., the City had affirmatively indicated an
intent to reinstate an offending ordinance after
voluntary cessation – “reenacting precisely the same
provision.” 2 In Northeastern Florida Chapter of the
Associated General Contractors of America v. City of
Jacksonville, the City had already implemented a
revised ordinance that similarly burdened the
plaintiff (“There is no mere risk that Jacksonville will
repeat its allegedly wrongful conduct; it has already
done so.”). 3 Similarly, in Trinity Lutheran Church of
Columbia, Inc. v. Comer, the Court found an
announcement that the Governor had “directed the
Department” to cease the challenged behavior “does
not moot this case.” 4 The announcement in Trinity
was clearly not legislative action.
The recent United States Supreme Court holding
in New York State Rifle & Pistol Ass’n v. City of New
455 U.S. 283, 289 & n.11, 102 S.Ct. 1070, 71 L.Ed.2d 152 (1982).
Board of Trustees at 1198, citing508 U.S. 656, 662-63, 113 S.Ct.
2297, 124 L.Ed.2d 586 (1993).
4 137 S.Ct. 2012, 2019, n.1.
2
3

Appendix 39a
York, 140 S. Ct. 1525, 1526 (2020), in which the City
of New York amended the rule being challenged on
appeal and instituted a replacement rule, also drives
home that “[Appellants’] claim for declaratory and
injunctive relief with respect to the City’s old rule is
therefore moot.” In New York State Rifle & Pistol
Ass’n v. City of New York, the Court ruled that when:
the mootness is attributable to a change
in the legal framework governing the
case, and where the plaintiff may have
some residual claim under the new
framework that was understandably not
asserted previously, our practice is to
vacate the judgment and remand for
further proceedings in which the parties
may, if necessary, amend their pleadings
or develop the record more fully.” Id.
That is not the case here – there is no new
ordinance, just a conditional possibility of some future
regulation. As such, there are no ripe residual claims
and the injunctive and declaratory relief sought by
Appellants is moot and should simply be dismissed 5.
Appellants argue that “Seattle has created a
roadmap to future regulation of rent-bidding
platforms of the same or similar nature.” Dkt. 50 at 1,
et seq. Further, Appellants argue that “[t]he clear
import of the ordinance is that Seattle plans to
reinstate its ban (or similar speech-restricting
It bears noting that any remand to the District Court to
consider whether Appellants may add a damages claim at this
late stage would be futile. The District Court has already decided
that Appellants do not have standing to proceed and has
dismissed their case on the merits as the ordinance impacts
conduct, not speech.

5

Appendix 40a
regulations on rent-bidding platforms) after it
generates the necessary data.” Id. at 8. Not only is this
patently wrong based on a logical reading of the
Repeal Ordinance; it also misstates the actual legal
challenge brought by Appellants in this case.
a) Based on a plain reading of the Repeal
Ordinance, there is no reasonable
likelihood that substantially similar
legislation will be passed in the future.
The Repeal Legislation “requests” that the Office
of Housing:
1) Collect data to track whether rental
housing
bidding
platforms
are
functioning for bidding purposes or only
for advertising or other non-bidding
functions, to determine whether the use
of the platforms in Seattle is having an
impact on equitable access to Seattle’s
rental housing market. The Council
requests the Office of Housing provide
the results of its data collection and
analysis by June 1, 2020;
2) Conduct testing to determine if the
use of the rental housing bidding
platforms for bidding purposes is in
compliance with SMC 14.08. The Council
requests the Office for Civil Rights
provide the results of testing by June 1,
2021; and
3) If the data has shown that the
platforms are functioning for bidding
purposes and there is an impact on
equitable access to rental housing, the

Appendix 41a
Office for Civil Rights and the Office of
Housing work with Council to determine
whether and how the recommendations
outlined in the Rent Bidding Study
should be implemented, including
mitigating
any
unintended
consequences.
Therefore, the Repeal Legislation removes any
present barrier for rental bidding platforms (which
was the basis for Appellants’ challenge) and merely
requests that the Office of Housing track the impacts
of implementation of rental bidding platforms, should
that occur. The Repeal Legislation does not suggest
any prescribed result and is highly conditional. First,
it assumes that rental bidding platforms will
commence in Seattle, which is not at all certain.
Second, it asks the Office of Housing to gather data.
Third, it requests recommendations on “mitigating
any unintended consequences” if, and only if, the data
shows an actual “impact on equitable access to rental
housing.” Appellants entirely ignore this threshold
condition in the Repeal Legislation that there be an
actual impact on equitable access to rental housing.
As the City Council is presumed to be acting in good
faith by affirmatively repealing SMC 7.24.090, which
was already set to sunset under its own provisions in
July 2020, and any future legislation is entirely
speculative, this matter is moot.
Appellants also conflate the Rent Bidding Study
with the actual legislation governing the City. While
the Rent Bidding Study “does not recommend either
the reinstatement or prohibition of rental bidding
platforms,” it does offer a possible recommendation to
“modify [the prohibition on rent-bidding platforms] to

Appendix 42a
be effective in perpetuity, or until rental bidding
platforms can affirmatively demonstrate compliance
with all federal, state, and local laws, and fair and
equitable operations.” (SA023-24). The first part of
that recommendation – to make the prohibition
effective in perpetuity – was not incorporated into the
legislation at all. See Repeal Ordinance, generally.
The second part, that the rent-bidding platforms may
need to show legal compliance before commencing
business, was incorporated in the recitals setting forth
the possible future regulations to be considered:
WHEREAS, the Rent Bidding Study
indicated that rental housing bidding
platforms should show evidence of
compliance and considerations of current
law before reinstating the use of the
platform by landlords and tenants; and
WHEREAS, the Rent Bidding Study
recommended that rental bidding
platforms affirmatively demonstrate
compliance with all federal, state, and
local laws as well as consideration of
fairness and equity; and
WHEREAS, the Rent Bidding Study
specifically recommended that the
Seattle Municipal Code’s regulation of
unfair housing practices be modified to
include requirements that rental bidding
platforms ensure compliance and
equitable access for those persons with
housing choice vouchers, and make
operations competitive for those with
vouchers; anonymize user profiles; make
platforms accessible to persons with

Appendix 43a
disabilities; provide multiple language
support; add a requirement to list
screening criteria; and require that an
Open Housing Poster be posted on all
platforms 6.
Future legislation would only consider these
recommendations if the gathered data showed an
adverse impact on equitable housing, but this case is
also not about those speculative list of regulations – it
is about a complete ban on rental bidding platforms, a
“moratorium.” ER02; Appellants’ Opening Brief at 2.
In the prayer for relief in their complaint, Appellants
sought “a declaration that Seattle’s ban on rentbidding platforms violated Rentberry’s and
Wysingle’s freedom of speech . . . [and] an injunction
forbidding enforcement of the ordinance.” Mootness
Brief at 9. This case has always been about a complete
ban, not whether the City could require Rentberry to
post an Open Housing Poster or affirmatively
demonstrate legal compliance before being allowed to
operate in Seattle.

Although the recital contains mandatory language, the effective
legislation only “encourages rental housing bidding platforms to
post the Seattle Open Housing Poster on their website to ensure
compliance by those utilizing their services.” Repeal Ordinance,
Section 6. This poster is a more inclusive version of the Federal
Fair Housing Act Poster that rental bidding platforms would
arguably have to post under 42 U.S.C. § 3601 et seq. Again, this
is not the type of harm challenged in this case.
6

Appendix 44a
b) Appellants seemingly challenge any
potential regulation of rental bidding
platforms, even if wholly different in
kind than a moratorium.
Throughout this litigation, Appellants have
argued that SMC 7.24.090 was unconstitutional
precisely because allegedly the City did not have the
basis to support a prohibition on rental bidding
platforms. See, e.g., Appellants’ Opening Brief at 1
(“The City of Seattle slapped a moratorium on the use
of these platforms without evidence of harm. The
City’s overzealous reaction to this new platform for
speech does not satisfy First Amendment scrutiny.”);
Id.at 1-2 (“The City passed the moratorium based on
speculation and conjecture, the moratorium does not
serve the government’s asserted interests, and the
moratorium is more extensive than necessary . . .”).
This case, and all of its briefing, is directed at
Appellants’ lack of standing, that the prohibition on
rental-bidding platforms restricts conduct, not speech,
and should this court move past the first two issues,
an analysis under Central Hudson 7 of a full
prohibition on rent-bidding platforms.
Appellants have never previously challenged (nor
could they) the City’s ability to place any regulations
on online bidding platforms – they challenged the
City’s ability to enact a moratorium on rental bidding
platforms “prophylactically” as a purported “ban first
and gather evidence later” approach. Dkt. 8 at 25.
Now Appellants decry the City’s efforts to do exactly
what they have demanded all along – study the issue
7 Cent. Hudson Gas & Elec. Corp. v. Pub. Serv. Comm'n of New
York, 447 U.S. 557, 100 S. Ct. 2343, 65 L. Ed. 2d 341 (1980).

Appendix 45a
before acting. Based on the clear reading of the
legislation, if rental bidding platforms came to
Seattle, and if they had an actual impact on equitable
access to housing, any subsequent remedial
legislation would be in a very different legal posture
as it would be evidence-based on the results of data
collection in the Seattle market and real-world
impacts.8 8 Additionally, the primary issue in play in
the current litigation is standing: neither Appellant
has standing to pursue their claims. Hypothetically, if
Rentberry became active in the Seattle market, if
future legislation were passed, and Mr. Wysingle was
actually impacted by that legislation, the legal
analysis in a future lawsuit would be very different.
In short, the present case is moot and any future
concern unripe for consideration.
B.

APPELLANTS’ LAST-MINUTE BID FOR
NOMINAL DAMAGES TO AVOID
MOOTNESS RUNS AFOUL OF BINDING
NINTH CIRCUIT PRECEDENT.

Appellants raise a nominal damages claim for the
first time in this litigation, pointing solely to their
demand for “other such additional relief as may be
just or proper.” Mootness Brief at 9. They do not deny
that they have never raised a specific claim for
damages or that they specifically sought declaratory

To be clear, for the reasons previously briefed, the City
maintains
that
the
recently-repealed
7.24.090
was
constitutionally implemented, as the District Court clearly held.
Appellants’ criticize the City for not admitting that the original
implementation was unconstitutional; however the only Court to
have reviewed the ordinance found it constitutional and the City
again declines to admit otherwise.

8

Appendix 46a
and injunctive relief concerning the now repealed
ordinance. Id.
Only two years ago, in Bain v. California Teachers
Association, this Circuit clarified that it would “reject
[Appellants’] attempt to manufacture jurisdiction and
avoid mootness by suddenly seeking restitution.” 891
F.3d 1206, 1214. As in the present case, the plaintiffs
in Bain “over and over again, throughout the various
legal maneuvers . . . consistently represented that
[they were] seeking only declaratory and injunctive
relief.” (citing Seven Words LLC v. Network Solutions,
260 F.3d 1089, 1096-97) (alteration in original).
Specifically, this Circuit has rejected relying on the
very clause seeking “other such additional relief as
may be just or proper,” which Appellants now insist is
relevant and not boilerplate in their response to a
challenge of mootness, when the complaint did not
include any damages claim whatsoever. Bain, at 1213
(citing Fox v. Bd. of Trustees of State Univ. of New
York, 42 F.3d 135, 141 (2d Cir. 1994) (complaint’s
prayer for “such other relief as the Court deems just
and proper” did not suffice to support a late-in-the-day
claim for nominal damages to avoid mootness because
“there is absolutely no specific mention in the
Complaint of nominal damages” (internal quotation
marks and adjustment omitted)); R.S. & V. Co. v.
Atlas Van Lines, 917 F.2d 348, 351 (7th Cir.
1990)(contract claim was moot where complaint failed
to seek nominal damages)).
Finally, nothing in NYSRPA changes this
outcome. The per curium decision summarily stated
“On remand [which had already been ordered to
resolve other residual claims], the Court of Appeals
and the District Court may consider whether

Appendix 47a
petitioners may still add a claim for damages in this
lawsuit with respect to New York City’s old rule,” but
did not offer any analysis of its decision to do so. 140
S. Ct. at 1526-1527. Likewise, dissent, like
Appellants, analyzes the unremarkable proposition
that nominal damages can generally be available even
if not specifically pled in the complaint (Id. at 1536 et
seq.), before turning to the “[o]ne final point about
damages [that] must be addressed,” namely a “claim
of damages ‘asserted solely to avoid otherwise certain
mootness.’” Id. at 1537 (distinguishing Arizonans for
Official English v. Arizona, 520 U.S. 43 (1997).
However,
this
non-binding
analysis,
while
distinguishing its own dicta, leaves the Ninth Circuit
precedent under Bain completely intact. As such, the
City submits that this court should decline
Appellants’ last-minute bid to avoid mootness and
dismiss this matter completely.
IV. CONCLUSION
As the Seattle City Council passed a repeal of SMC
7.24.090, which was effective on April 12, 2020, and
for the reasons set forth above, The City of Seattle
submits that this case should be dismissed as moot.
Respectfully submitted this 29th day of June,
2020.
s/ Brian G. Maxey
SEATTLE CITY ATTORNEY’S OFFICE
*****

Appendix 48a
No. 19-35308
________________________
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
Rentberry, Inc., and Delaney Wysingle,
Plaintiffs – Appellants,
v.
The City of Seattle,
Defendant – Appellee.
_______________________________
On Appeal from the United States District Court
for the Western District of Washington
Honorable Richard A. Jones, District Judge
_______________________________
APPELLANTS’ SUPPLEMENTAL REPLY
BRIEF ON MOOTNESS
_______________________________
*****
INTRODUCTION
Pursuant to this Court’s order dated April 28,
2020, Appellants submit this supplemental reply brief
explaining why this lawsuit is not moot.
I. THE CITY INTENDS TO ENACT SAME OR
SIMILAR LEGISLATION
The City argues that if it enacts any type of
regulation short of a permanent ban, then all the

Appendix 49a
litigation to date in this case is for naught. City Brf.
on Mootness at 13–14. This ignores this Court’s
admonition in Bd. of Trustees of Glazing Health and
Welfare Tr. v. Chambers, 941 F.3d 1195, 1199 (9th Cir.
2019), that a case is not moot if a city enacts
legislation “similar” to the repealed ordinance. The
key question for this Court on the merits is whether
regulation of rental-bidding platforms represents
regulation of speech or conduct. This threshold
question does not depend on the particular contours of
the regulation. If regulation of rental-bidding
platforms implicates First Amendment speech rights,
this Court would reverse the district court’s ruling
and remand to determine whether the government
can justify the infringement.
Trustees explains that legislative repeal will not
moot a case when there is “a reasonable expectation
that the legislative body will reenact the challenged
provision or one similar to it.” Id. at 1199. 1 Whether
such an expectation is reasonable depends on the
circumstances of the repeal and professed intentions
of those in a position to resume regulation. 2 Here, the
new ordinance threatens to apply the Rent Bidding
The City incorrectly employs a “substantial likelihood” test
rather than “reasonable expectation.” See City Brf. on Mootness
at 1.
2 Courts frequently determine a party’s likely future behavior
based on existing facts and circumstances. See Knecht v. Fidelity
Nat. Title Ins. Co., No. C12–1575RAJ, 2014 WL 4057148, *9
(W.D. Wash. Aug. 14, 2014) (where defendant refused to state its
intentions regarding future foreclosure actions, court determined
that it was “reasonable to suspect” that it would resume previous
unlawful conduct based on past and present circumstances);
Burgess v. Gilman, No. 3:03 CV 0707 ECR RAM, 2006 WL
449212, *6 (D. Nev. Feb. 23, 2006) (court reviews record for
“objective indicia of intent” to resume use of trademark).
1

Appendix 50a
Study’s policy recommendations, up to and including
a total ban, and puts the burden on private companies
to justify speech rather than on the government to
restrict speech. In doing so, the ordinance consistently
reflects the legislature’s future intentions.
The new ordinance explicitly states that, pending
the study results, the Council will “determine whether
and how the recommendations outlined in the Rent
Bidding Study should be implemented, including
mitigating any unintended consequences.” Ord.
126053 § 5. This places the burden on the rentalbidding platform industry to prove compliance with
the City’s undefined goals and values. Id.
(“WHEREAS, the Rent Bidding Study indicated that
rental housing bidding platforms should show
evidence of compliance and considerations of current
law before reinstating the use of the platform by
landlords and tenants; and WHEREAS the Rent
Bidding Study recommended that rental-bidding
platforms affirmatively demonstrate compliance with
all federal, state, and local laws as well as
consideration of fairness and equity…”). This
completely inverts the constitutional protections of
the First Amendment. See Rosen v. Port of Portland,
641 F.2d 1243, 1246 (9th Cir. 1981) (as a “general
principle,” an ordinance that “regulate[s] or
infringe[s] upon the exercise of first amendment
rights . . . is presumptively unconstitutional and the
state bears the burden of justification.”). The City’s
claims of only modest future regulation ring hollow
given its past willingness to completely ban speech
based on nonexistent evidence.
Seattle’s Office of Housing’s Rent Bidding Study
recommends modifying the original and renewed

Appendix 51a
ordinance “to be effective in perpetuity, or until
rental-bidding
platforms
can
affirmatively
demonstrate compliance with all federal, state and
local laws, and fair and equitable operations.” Decl. of
Blevins to Supp. Record, Exh. 1 at 11–12 (emphasis
added). The City seeks to distance itself from this
recommendation, City Brf. on Mootness at 12, because
the phrase “in perpetuity” was not incorporated into
the final ordinance. The language of the ordinance
need not duplicate the underlying study to evidence
intent to reenact the same or similar legislation. It is
enough that the ordinance generally relies on the
Rent Bidding Study and is consistent with public
statements by Teresa Mosqueda, the ordinance’s
sponsor, urging the Departments of Housing and Civil
Rights to move quickly if “things are escalating out of
control.” See Appellants’ Supp. Brf. on Mootness at 9.
The City makes no attempt to counter the
persistent declarations by members of the City
Council and its staff that plainly indicate an intent to
pursue future legislation in the same vein as the
repealed ordinance. See Appellants’ Supp. Brf. on
Mootness at 6–9. The City’s choice to ignore these
statements in its brief suggests that no members of
the City Council or staff expressed alternative views;
apparently all agree that the City anticipates
regulating rental-bidding platforms to “promote its
values,” id. at 6, regardless of the effect on individual
speech rights.
The ordinance and legislative history present a
consistent theme that future regulation—up to and
including a permanent ban on rental-bidding
platforms—remains on the table.

Appendix 52a
II.

NOMINAL DAMAGES ARE
MANDATORY FOR VIOLATION OF
CONSTITUTIONAL RIGHTS

The City ignores multiple cases cited by
Appellants in their opening supplemental brief
supporting an award of nominal damages in this case,
Appellants’ Supp. Brf. on Mootness at 9–14, and never
addresses Federal Rule of Civil Procedure 54(c)
(“[F]inal judgment should grant the relief to which
each party is entitled, even if the party has not
demanded that relief in its pleadings.”). Nominal
damages need not be explicitly sought. See Appellants’
Supp. Brf. on Mootness at 9–12 (citing, e.g., Z Channel
Ltd. P’ship v. Home Box Office, Inc., 931 F.2d 1338,
1341 (9th Cir. 1991)). See also Whole Woman’s Health
v. Hellerstedt, 136 S. Ct. 2292, 2307 (2016) (Under
Rule 54(c), a court can enter an injunction striking
down a statute even if the plaintiff only sought relief
on as-applied grounds.); State of Idaho Potato Comm’n
v. G&T Terminal Packaging, Inc., 425 F.3d 708, 720
(9th Cir. 2005) (“district court may award relief not
prayed for” under Rule 54(c)).
Instead, the City relies almost entirely on Bain v.
California Teachers Ass’n, 891 F.3d 1206 (9th Cir.
2018). Bain is distinguishable. First, the actions that
mooted the Bain case were those of the plaintiffs
themselves. The case involved a First Amendment
challenge to a public employee union’s requirement
that union members support the union’s political and
ideological activities (above and beyond collective
bargaining). Bain, 891 F.3d at 1208. During the
litigation, the plaintiff-teachers left their positions,
such that none of them could benefit from the
requested injunctive and declaratory relief. Id. at

Appendix 53a
1209. As none of the teachers intended to return to
their jobs or rejoin the union, the case was moot. Id.
at 1214. In this case, by contrast, the defendant City
relies on its own actions to justify mootness and
Appellants remain the targets of the City’s
contemplated regulation or ban of rental-bidding
platforms.
Second, the Bain plaintiffs sought to avoid
mootness by seeking leave to add new parties on
appeal; a highly disfavored maneuver that the court
rejected. Id. at 1215. Rentberry does not seek
anything comparable to adding new parties—it seeks
solely to have its request for nominal damages—an
entitlement for any plaintiff who proves a
constitutional
violation—acknowledged
as
encompassed within the prayer for additional other
relief that the court deems just and proper.
Relatedly, the Bain plaintiffs sought restitution,
not nominal damages. Bain, 891 F.3d at 1212. The
Bain court treated these two types of relief as
analogous, but other cases clearly explain that they
serve different purposes. As Bain acknowledges,
restitution is a type of “money damages to remedy
past wrongs.” Id. Nominal damages in a constitutional
case are different because they are not meant to
compensate someone who has suffered a financial
injury; they are a “symbolic vindication” of a
constitutional right. Cummings v. Connell, 402 F.3d
936, 942 (9th Cir. 2005). Violations of core
constitutional protections support claims for nominal
damages, even if the plaintiff does not suffer
cognizable monetary damages. Carey v. Piphus, 435
U.S. 247, 266 (1978); Klein v. Laguna Beach, 810 F.3d
693, 697 (9th Cir. 2016) (awarding nominal—but not

Appendix 54a
compensatory—damages where plaintiff’s First
Amendment lawsuit achieved “future-oriented
goals.”). In this Circuit, a plaintiff who prevails in a
civil rights action under section 1983 “is entitled to
nominal damages as a matter of law.” Floyd v. Laws,
929 F.2d 1390, 1401 (9th Cir. 1991). See also Gerritsen
v. City of Los Angeles, 66 F.3d 335, *1 (9th Cir. 1995)
(mem.) (“Where a party’s constitutional rights have
been violated, an award of nominal damages is
mandatory.”); Sanders v. Grimes, No. 1:18-cv-01285AWI-JLT (PC), 2020 WL 1433007, *5 (E.D. Cal. Mar.
24, 2020) (same, citing Floyd). 3
Finally, Arizonans for Official English v. Arizona,
520 U.S. 43, 71 (1997), does not preclude an award of
nominal damages should Appellants prevail in this
case. Arizonans noted in dicta that a claim for
damages “asserted solely to avoid cert mootness”
should be inspected closely, which this Court is doing
via these supplemental briefs. The briefing reveals no
reason that nominal damages could not be awarded to
Appellants in this case should they ultimately prevail.
Cities are routinely ordered to pay nominal damages.
See, e.g., Soffer v. City of Costa Mesa, 798 F.2d 361,
363 (9th Cir. 1986) (nominal damages awarded
against city for constitutional violations where
3 Two other cases cited by the City are similarly distinguishable.
In Seven Words LLC v. Network Solutions, 260 F.3d 1089, 1097
(9th Cir. 2001) (cited by Bain), this Court rejected the plaintiff’s
request for compensatory damages to avoid mootness after
because the plaintiff had previously, explicitly, and strategically
disavowed any intent to seek damages. The case did not involve
the mandatory nominal damages owed to any prevailing plaintiff
in civil rights litigation. RS&V Co. v. Atlas Van Lines, 917 F.2d
348 (7th Cir. 1990), involved a private contract dispute without
any constitutional or civil rights component.

Appendix 55a
plaintiff did not claim or offer to prove any
compensatory damages); Ruvalcaba v. City of Los
Angeles, 167 F.3d 514, 524 (9th Cir. 1999). An award
of nominal damages is not a trivial matter; it changes
the legal relationship between the parties, thus
making it possible for prevailing Appellants who have
vigorously defended civil rights to seek attorneys’ fees
under 42 U.S.C. § 1988. See Lewis v. County of San
Diego, 798 Fed. App’x 58, 62 (9th Cir. 2019); Wilcox v.
City of Reno, 42 F.3d 550, 556–57 (9th Cir. 1994).
CONCLUSION
This case is not moot and the Court should proceed
to oral argument and decision.
DATED: July 10, 2020. Respectfully submitted,
s/ ETHAN W. BLEVINS
*****

Appendix 56a
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
WASHINGTON
AT SEATTLE
RENTBERRY INC.,
)
a Delaware
) Civil Action No. _____
corporation, and
)
Delaney Wysingle,
)
CIVIL RIGHTS
an individual,
)
COMPLAINT
) FOR DECLARATORY
)
AND INJUNCTIVE
Plaintiffs,
)
RELIEF
v.
)
)
THE CITY OF
)
SEATTLE, a
)
Washington
municipal
corporation,
Defendant.
Plaintiffs, Rentberry, Inc., and Delaney Wysingle,
by and through undersigned counsel, hereby file this
Complaint against Defendant City of Seattle
(hereinafter “the City”) and allege as follows:
INTRODUCTION
1. This civil rights action seeks to vindicate
Plaintiffs’ rights of freedom of speech protected by the
First Amendment to the United States Constitution.
The City is violating those rights by enforcing a ban
on rental bidding websites that facilitate
communication between landlords and renters in the
City of Seattle.

Appendix 57a
JURISDICTION AND VENUE
2. This case is brought pursuant to 42 U.S.C. §§
1983 and 1988 and 28 U.S.C. §§ 2201 and 2202.
3. This Court has subject matter jurisdiction
based on 28 U.S.C. §§ 1331 and 1343(a)(3) and (4).
4. Venue in this Court is appropriate pursuant to
28 U.S.C § 1391(b).
PARTIES
5. Plaintiff Rentberry, Inc., is a start-up founded
in late 2015 as an online platform to assist users—
both landlords and renters—to find and manage
rental housing. Rentberry’s purpose is to reduce
costs, delay, and uncertainty in the rental process.
Rentberry operates a website that facilitates
communications between landlords and tenants in
4,948 cities.
6. Rentberry’s innovative online communication
platform allows renters and landlords, including
landlords like Plaintiff Delaney Wysingle, to
communicate about rental properties and maintain
lasting landlord–tenant relationships.
7. A key feature of the Rentberry platform is its
online bidding technology, which increases
transparency and efficiency and allows landlords and
tenants to adjust to changes in housing markets by
bidding on the rental rate for a housing unit.
8. Rentberry facilitates communications between
landlords and renters regarding lease terms,
including rent, deposits, and lease duration, through
its online bidding process.

Appendix 58a
9. Rentberry’s bidding platform is designed to
facilitate communication of price information in real
time, to ensure that landlords price their properties
optimally in both hot and slow markets, while
potential tenants enjoy complete visibility on
competing offers and the ability to seamlessly
negotiate rental terms online.
10. As well as lease terms, including rent,
deposits, and lease duration, Rentberry also
facilitates communication on a wide variety of topics
related to housing between landlords and renters
regarding maintenance requests, housing references,
search engine functions, and reviews. Many of these
communications do not propose a commercial
transaction.
11. All of the communications Rentberry
facilitates are inextricably intertwined with the
complex, personal, and long-lasting relationships
between landlord and tenant that are initiated by the
bidding process.
12. The bidding feature is an integral component
of Rentberry’s website.
13. Rentberry collects a fee at different stages in
the rental process: Tenants pay $9.99 per application
(this
includes
credit
report/score,
criminal/background check); Landlords pay $19.99
for document execution and rent collection
functionality; Landlords pay $24.99 to utilize the
platform if they have more than 3 properties on the
platform; Brokers pay $24.99 to utilize the platform.
14. Rentberry is incorporated in Delaware (EIN:
47-4933743) and operates from an office in San
Francisco, California.

Appendix 59a
15. Plaintiff Delaney Wysingle is a landlord who
owns and manages a single-family rental home in
Seattle.
16. Mr. Wysingle has owned and managed his
rental property for three years and intends to
continue to do so in the future.
17. Mr. Wysingle periodically needs to find new
tenants for his rental property and will need to do so
again in the summer of 2018.
18. Mr. Wysingle plans to communicate with
prospective tenants using Rentberry and other
“rental housing bidding platforms,” as defined in
SMC 7.24.090. Mr. Wysingle would use bidding
platforms to save time, settle on a mutually beneficial
arrangement with prospective tenants, and
determine the best market rent through bidding. Mr.
Wysingle would consider a bid below his initial
asking price if the applicant seemed otherwise
qualified. Mr. Wysingle would also use Rentberry’s
search functions for Seattle properties in order to
evaluate competition and view dynamic pricing in the
residential housing market.
19. Mr. Wysingle values the right to easily
communicate with his tenants, and Rentberry would
facilitate easier communication with both existing
and prospective tenants. Mr. Wysingle cannot afford
to absorb losses because of a tenancy gone bad. Mr.
Wysingle treasures his right to ensure compatibility
by easily communicating with eligible applicants and
tenants.
20. Defendant City of Seattle is a Washington
state municipality located in King County and
chartered by the State of Washington.

Appendix 60a
FACTS
21. On March 19, 2018, the City Council voted to
amend Seattle’s Rental Agreement Regulation
Ordinance, SMC 7.24.020 to .160, by approving
Ordinance No. 125551 (hereinafter the “website
ban”).
22. Exhibit 1 is a true and accurate copy of the
website ban. 1
23. On March 30, 2018, Mayor Jenny Durkan
approved the website ban.
24. On April 29, 2018, the website ban became
effective and is codified at SMC 7.24.020 and
7.24.090.
25. The website ban establishes a one-year
prohibition on the use of “Rental housing bidding
platforms,” like Rentberry, “that connect[] potential
tenants and landlords via an application based or
online platform to facilitate rental housing auctions
wherein potential tenants submit competing bids on
certain lease provisions including but not limited to
housing costs and lease term, to landlords for
approval or denial.” SMC 7.24.020; SMC 7.24.090(A),
(B).
26. Rentberry is a “Rental housing bidding
platform” as defined by the website ban.
27. The City’s staff memo regarding the website
ban identified two websites as targets of the website
ban: Rentberry and Biddwell.
The website ban is also available online:
http://seattle.legistar.com/LegislationDetail.aspx?ID=3347171&
GUID=750FB212-7C08-4E0A-AA72579F2242A561&FullText=1
1

Appendix 61a
28. Exhibit 2 is a true and accurate copy of the
staff memo. 2
29. “Landlords and potential tenants are
prohibited from using rental housing bidding
platforms for real property located in Seattle city
limits.” SMC 7.24.090(A).
30. Landlords and tenants are free to discuss
“competing bids on certain lease provisions including
but not limited to housing costs and lease term,” so
long as they do not communicate via a rental housing
bidding platform.
31. By banning landlords and potential tenants
from using Rentberry’s innovative communications
platform for real property located in Seattle city
limits, the website ban operates as a prior restraint
on lawful expression.
32. By banning the use of rental housing bidding
platforms like Rentberry, the website ban prohibits
all speech communicated on the platform, including
bidding.
33. Failure to comply with the Rental Agreement
Regulation Ordinance, including the website ban,
subjects landlords and tenants to a $500 fine for the
first violation and a $1,000 fine for each subsequent
violation within a five-year period. SMC
7.24.130(F)(1). Additional violations within a threeyear period can result in criminal charges. SMC
7.24.150.

The staff memo is also available online:
http://seattle.legistar.com/View.ashx?M=F&ID=5872575&GUID
=23EFA295-6878-47E3-8B7B-D549967137F9
2

Appendix 62a
34. But for the City’s enforcement of the website
ban, Rentberry would make its site available to
facilitate communications between Seattle landlords
and tenants.
35. But for the City’s enforcement of the website
ban, Mr. Wysingle would use rental bidding
platforms, including Rentberry, to communicate with
potential tenants.
36. The website ban was passed to prevent
landlords and tenants from communicating via
rental housing bidding platforms while
the Office of Housing coordinate[s]
with the Seattle Office for Civil Rights
and the Seattle Department of
Construction
and
Inspections
to
determine whether rental housing
bidding platforms comply with The City
of Seattle’s fair housing and rental
regulation laws and conduct a study of
the current or potential impacts rental
housing bidding platforms have and
could have on equitable access to
Seattle’s rental housing market.
SMC 7.24.090(C)(3).
37. The website ban prevents landlords and
tenants from communicating via rental housing
bidding platforms because “it is unclear whether the
structure and operation of these new services comply
with the City’s code, including new regulations such
as first-in-time.” Ordinance 125551 at 1, lines 18-20.
38. The first-in-time regulation referenced in the
website ban does not apply if the landlord is legally

Appendix 63a
obligated to or voluntarily sets aside the rental unit
for “specific vulnerable populations.”
SMC
14.08.050(A)(4)(a), (b). Accessory dwelling units and
detached accessory dwelling units are also exempted.
39. The first-in-time rule referenced in the website
ban has been declared unconstitutional. Yim v. City
of Seattle, Case No. 17-2-05595-6 (King Cnty. Super.
Ct. 2018), appeal docketed, No. 95813-1 (Washington
Supreme Court Apr. 26, 2018).
40. The City Council did not make any legislative
findings and has no evidence that rental housing
bidding platforms violate the City of Seattle’s fair
housing and rental regulation laws.
41. The City Council did not make any legislative
findings and has no evidence that rental housing
bidding platforms have any impact on equitable
access to Seattle’s rental housing market.
42. The City Council did not make any legislative
findings and has no evidence that the website ban
directly advances a substantial governmental
interest.
43. The connection between rental housing
bidding platforms and any governmental interest is
“unclear,” “uncertain,” and “has not been studied in
Seattle.” Ordinance 125551 at 1, lines 18-25.
CLAIM FOR RELIEF
(Free Speech)
(First and Fourteenth Amendments)
44. Plaintiffs incorporate the allegations in the
preceding paragraphs.

Appendix 64a
45. The First Amendment to the United States
Constitution, as applied to the States through the
Fourteenth Amendment, protects the truthful,
nonmisleading speech that Mr. Wysingle would
engage in on rental bidding platforms, including
Rentberry.
46. The First Amendment to the United States
Constitution, as applied to the States through the
Fourteenth Amendment, protects the truthful,
nonmisleading speech that is facilitated by
Rentberry’s website.
47. On its face and as enforced by the City, the
website ban prohibits Plaintiffs from engaging in
lawful communication through a rental housing
bidding platform.
48. The speech ban imposed by the website ban
burdens Plaintiffs’ rights of free speech.
49. The speech ban imposed by the website ban is
not tailored to serve a substantial government
interest.
50. By prohibiting Plaintiffs from communicating
through a rental housing bidding platform, the City
currently maintains and actively enforces a set of
laws, practices, policies, and procedures under color
of state law that deprive Plaintiffs of their rights of
free speech, in violation of the First Amendment to
the United States Constitution, as applied to the
States through the Fourteenth Amendment and 42
U.S.C. § 1983.
51. Plaintiffs have no adequate remedy at law to
compensate for the loss of these fundamental
freedoms and will suffer irreparable injury absent an

Appendix 65a
injunction restraining the City’s enforcement of the
website ban.
52. Plaintiffs are therefore entitled to declaratory
and permanent injunctive relief against continued
enforcement and maintenance of the City’s
unconstitutional laws, practices, and policies. See 28
U.S.C. §§ 2201, 2202.
PRAYER FOR RELIEF
Wherefore, Plaintiffs respectfully request that
this Court enter judgment in their favor as follows:
A. Declare that SMC 7.24.090(A) violates
Plaintiffs’ rights to freedom of speech protected by
the First and Fourteenth Amendments on its face
and as applied;
B. Preliminarily
and
permanently
enjoin
Defendant, its officers, agents, servants, employees,
and all persons in active concert or participation with
them from enforcing SMC 7.24.090(A);
C. Award Plaintiffs their costs, attorneys’ fees,
and other expenses in accordance with law, including
42 U.S.C. § 1988; and
D. Order such additional relief as may be just and
proper.
DATED: May 23, 2018.

Respectfully submitted,
s/ BRIAN T. HODGES
*****
Attorneys for Plaintiffs

Appendix 66a

CITY OF SEATTLE
ORDINANCE 125551
COUNCIL BILL 119198
AN ORDINANCE relating to fair housing;
establish a one-year prohibition on use of rental
housing bidding platforms, requesting a study of
rental housing bidding platforms; amending Section
7.24.020 of the Seattle Municipal Code; and adding a
new Section 7.24.090 to the Seattle Municipal Code.
WHEREAS, online or application-based platforms
that: provide landlords the ability to list rental
housing units, oblige potential tenants to bid on
certain lease provisions, and allow landlords their
choice of tenant based on the tenant’s bid and
screening criteria, have recently appeared in many
housing markets, including Seattle’s; and
WHEREAS, over the past several years, the City
Council has passed a variety of amendments to the
Seattle Municipal Code regulating rentals, revising
the housing code, and updating fair housing
protections, resulting in a new and different
regulatory landscape; and
WHEREAS, emerging technologies have caused
consumers to rapidly escalate the use of application
based and online services, and it is unclear whether
the structure and operation of these new services
comply with the City’s code, including new regulations
such as first-in-time; and
WHEREAS, Seattle’s housing market has become
very competitive over the past decade, causing
scarcity issues for tenants; and

Appendix 67a
WHEREAS, it is uncertain whether and how these
services impact Seattle’s rental housing market, as
these services may have different effects on markets
depending on the scarcity of housing supply; and
WHEREAS, the benefits and drawbacks of such
services to landlords and tenants have not been
studied in Seattle; and
WHEREAS, the City of Seattle is committed to
ensuring equitable access to rental housing, and
platforms that require use of a computer and internet
in order to access rental housing may hinder the
ability for certain communities to meaningfully
identify and obtain needed housing; and
WHEREAS, the Council wishes to understand new
technologies and innovation that may have impacts on
communities throughout Seattle prior to these new
technologies and innovations becoming entrenched
without regard to whether their impacts are in line
with Seattle’s values of equity and Seattle’s work
toward expanding access to rental housing; and
WHEREAS, the Council wishes to know more
about how these services function and the impact they
may have on Seattle’s rental housing market before
allowing landlords and tenants to use them within the
City; NOW, THEREFORE,
BE IT ORDAINED BY THE CITY OF SEATTLE
AS FOLLOWS:
Section 1. Section 7.24.020 of the Seattle
Municipal Code, last amended by Ordinance 125222,
is amended as follows:
7.24.020 Definitions((,))
***

Appendix 68a
“Rental agreement” means a “rental agreement” as
defined and within the scope of RCW 59.18.030 and
RCW 59.18.040 of the RLTA in effect at the time the
rental agreement is executed. At the time of the
passage of the ordinance codified in this chapter, the
RLTA defined “rental agreement” as “all agreements
which establish or modify the terms, conditions, rules,
regulations, or any other provisions concerning the
use and occupancy of a dwelling unit.”
“Rental housing bidding platform” or “platform”
means a person that connects potential tenants and
landlords via an application based or online platform
to facilitate rental housing auctions wherein potential
tenants submit competing bids on certain lease
provisions including but not limited to housing costs
and lease term, to landlords for approval or denial.
Merely publishing a rental housing advertisement
does not make a person a rental housing bidding
platform. This definition shall expire on the date
Section 7.24.090 expires.
***
Section 2. A new Section 7.24.090 is added to the
Seattle Municipal Code as follows:
7.24.090 Use of online or application based
rental housing bidding services prohibited
A. Landlords and potential tenants are prohibited
from using rental housing bidding platforms for real
property located in Seattle city limits.
B. This Section 7.24.090 shall expire one year after
the effective date of the ordinance introduced as
Council Bill 119198 unless Council exercises its

Appendix 69a
authority under subsection 7.24.090.C, in which case
it shall expire at the end of the extension.
C. Council has the authority to extend the
prohibition in subsection 7.24.090.B by up to twelve
months if the Office of Housing requests more time to
complete the study of rental housing impacts, or if
Council needs more time to review the study or
discuss potential action.
Section 3. The City Council requests that the
Office of Housing coordinate with the Seattle Office
for Civil Rights and the Seattle Department of
Construction and Inspections to determine whether
rental housing bidding platforms comply with The
City of Seattle’s fair housing and rental regulation
laws and conduct a study of the current or potential
impacts rental housing bidding platforms have and
could have on equitable access to Seattle’s rental
housing market. The Office of Housing shall submit
the study, which should include compliance
determinations by the Office for Civil Rights and the
Department of Construction and Inspections, to the
Chair of the Housing, Health, Energy, and Worker’s
Rights Committee of City Council within twelve
months of enactment of the ordinance introduced as
Council Bill 119198.
Section 4. The provisions of this ordinance are
declared to be separate and severable. If any clause,
sentence, paragraph, subdivision, section, subsection
or portion of this ordinance, or the application thereof
to any person or circumstance, is held to be invalid, it
shall not affect the validity of the remainder of this
ordinance, or the validity of its application to other
persons or circumstances.

Appendix 70a
Section 5. This ordinance shall take effect and be
in force 30 days after its approval by the Mayor, but if
not approved and returned by the Mayor within ten
days after presentation, it shall take effect as provided
by Seattle Municipal Code Section 1.04.020.
Passed by the City Council on the 19th day of
March, 2018, and signed by me in open session in
authentication of its passage this 19th day of March,
2018.
s/ Bruce A. Harrell
President of the City Council
Approved by me this 30th day of March, 2018.
s/ Jenny A. Durkan
Mayor

(Seal)

Filed by me this 30th day of March, 2018.
s/ Monica Martinez Simmons
City Clerk

Appendix 71a
Seattle City Council Central Staff
March 7, 2018
MEMORANDUM
To: Housing, Health, Energy, and Workers’ Rights
Committee Members
From: Asha Venkataraman, Council Central Staff
Subject: CB 119198: Prohibiting Use of Rental
Housing Bidding Platforms
On March 8, 2018, the Housing, Health, Energy,
and Workers’ Rights (HHEWR) Committee plans to
discuss and vote on Council Bill (CB) 119198,
sponsored by Councilmember Mosqueda. The
HHEWR committee discussed a draft version of this
bill at its meeting on February 15, 2018. CB 119198
prohibits landlords and renters in the City from using
rental housing bidding platforms for one year. Rental
housing bidding platforms such as Rentberry or
Biddwell are sites for online auctions that allow
landlords to list available rental units and potential
tenants to bid on those units. Landlords can then
choose the tenant based on their bid and other
application materials submitted. CB 119198 requests
that the Seattle Department of Construction and
Inspections (SDCI) and the Seattle Office for Civil
Rights (SOCR) study whether such rental bidding
platforms comply with Seattle’s rental regulation and
fair housing laws, administered by SDCI and SOCR
respectively. It also requests that SOCR and SDCI
conduct an analysis of the impact such platforms have
on Seattle’s housing market. This memorandum
describes the purpose of CB 119198, the specifics of
the bill, and proposed amendments.

Appendix 72a
CB 119198 Overview
In January 2018, the Associated Students of the
University
of
Washington
(ASUW)
sent
Councilmembers an ASUW legislative directive,
which called for a ban on setting apartment rents
using online bidding services. ASUW’s concerns
centered on the potential for increasing the cost of
housing for university students, which could result in
more homeless students, given studies of how these
types of services impact competitive housing
markets.1 ASUW presented its concerns at the
February 15, 2018 meeting of the HHEWR committee.
After being made aware of this issue,
Councilmember Mosqueda focused on three main
purposes for CB 119198: (1) to study whether these
types of services are compliant with the City’s current
laws; (2) to give the City time to create a regulatory
framework if necessary before use of such services
proliferates; and (3) to determine current and
potential impacts on Seattle’s housing market. CB
119198 accomplishes the first by requesting SOCR
and SDCI to study whether use of these platforms
comply with the City laws that SOCR and SDCI
administer. SOCR enforces Fair Housing protections,
which include first-in-time protections. First-in-time
requires a landlord to offer a rental unit to the first
applicant who meets the landlord’s advertised
screening criteria. SDCI enforces rental agreement
regulations and the housing code. It is not currently
clear whether these platforms are compliant with
these laws. CB 119198 accomplishes the second by
prohibiting landlords and potential tenants from
using rental bidding platforms for one year, so that
the City can determine if and how it wants to regulate

Appendix 73a
these platforms. SDCI will enforce this prohibition
under existing enforcement provisions in Seattle
Municipal Code (SMC) Chapter 7.24. Lastly, CB
119198 accomplishes the third focus by requesting
SOCR and SDCI study or select a third party to study
the impact on housing markets, so the City is aware
of the effects of platforms such as these on Seattle’s
housing market.
Proposed Amendments
Amendment text is provided in Attachment A.
Amendment
Mosqueda

1,

sponsored

by

Councilmember

This amendment adds recital language about the
equity implications of rental bidding platforms and
revises recital language to make clear the bill is
concerned with rental housing markets, not
residential sales.
This amendment also clarifies Section 3 of the
legislation, specifying which departments and offices
Council is requesting conduct studies. The amended
language makes clear that the Office of Housing (OH)
will be coordinating with SOCR and SDCI to study
compliance with current City law, and conducting a
study about the current and potential impacts that
rental housing bidding platforms have or could have
on equitable access to the City’s rental housing
market. This section asks OH to submit the study to
the HHEWR committee within one year of CB
119198’s enactment.
Amendment 2, sponsored by Councilmember Juarez
This amendment adds an option for Council to
extend the prohibition against use of these platforms

Appendix 74a
for up to an additional twelve months if OH believes
more time is necessary to complete the study
requested by Council or Council needs more time to
review the study and consider potential action.
Attachments:
A.

Proposed Amendments to CB 119198

cc:

Kirstan Arestad, Central Staff Director
Amy Tsai, Supervising Analyst

Appendix 75a
CITY OF SEATTLE
ORDINANCE 125840
COUNCIL BILL 119507
AN ORDINANCE relating to fair housing;
establishing a one-year prohibition on use of rental
housing bidding platforms; amending Section
7.24.020 of the Seattle Municipal Code; and adding a
new Section 7.24.090 to the Seattle Municipal Code.
WHEREAS, online or application-based platforms
that provide landlords the ability to list rental
housing units, oblige potential tenants to bid on
certain lease provisions, and allow landlords their
choice of tenant based on the tenant’s bid and
screening criteria have recently appeared in many
housing markets, including Seattle’s; and
WHEREAS, over the past several years, the City
Council (“Council”) has passed a variety of
amendments to the Seattle Municipal Code regulating
rentals, revising the housing code, and updating fair
housing protections, resulting in a new and different
regulatory landscape; and
WHEREAS, emerging technologies have caused
consumers to rapidly escalate the use of applicationbased and online services, and it is unclear whether
the structure and operation of these new services
comply with the Seattle Municipal Code; and
WHEREAS, the Council wishes to understand new
technologies and innovations that may have impacts
on communities throughout Seattle, prior to these
new technologies and innovations becoming
entrenched; and

Appendix 76a
WHEREAS, the Council wishes to know more
about how these services function and the impact they
may have on Seattle’s rental housing market before
allowing landlords and tenants to use them within
Seattle; and
WHEREAS, the Council passed Ordinance 125551
in March 2018, prohibiting landlords and potential
tenants from using rental housing bidding platforms
for real property located in Seattle city limits; and
WHEREAS, Ordinance 125551 also included a
request for the Office of Housing to “conduct a study
of the current or potential impacts rental housing
bidding platforms have and could have on equitable
access to Seattle’s rental housing market”; and
WHEREAS, in 2018, Rentberry, Inc. and Delaney
Wysingle, an individual, sued The City of Seattle for
its prohibition against landlords and potential
tenants’ use of rental housing-bidding platforms,
arguing that the prohibition interfered with their
freedom of speech; and
WHEREAS, on March 15, 2019, Judge Richard A.
Jones ruled in favor of The City of Seattle, stating that
the use of the online rental housing bidding service
Rentberry provides is conduct, not speech;
NOW, THEREFORE, BE IT ORDAINED BY THE
CITY OF SEATTLE AS FOLLOWS:
Section 1. Findings
A. Seattle’s housing market has become very
competitive over the past decade, causing scarcity
issues for tenants.
B. It is uncertain whether and how these
application-based and online services impact Seattle’s

Appendix 77a
rental housing market, as these services may have
different effects on markets depending on the scarcity
of housing supply.
C. The benefits and drawbacks of such services to
landlords and tenants have not been studied in
Seattle.
D. The City of Seattle is committed to ensuring
equitable access to rental housing, and platforms that
require use of a computer and internet in order to
access rental housing may hinder the ability for
certain communities to meaningfully identify and
obtain needed housing.
E. The use of new technologies and innovations can
spread quickly, whether or not their impacts on
communities are in line with Seattle’s values of equity
and work toward expanding access to rental housing.
F. Studies suggest that the auction model of rental
housing-bidding works to increase rents, and rental
housing-bidding software will place an additional
increased upward pressure on rents.
G. Rent increases have been shown to
disproportionately impact low-income households and
households of color.
H. The Office of Housing is conducting the study
on rental housing-bidding and estimates it will be
completed in June 2019.
Section 2. Section 7.24.020 of the Seattle
Municipal Code, last amended by Ordinance 15
125558, is amended as follows:
7.24.020 Definitions
***

Appendix 78a
“Rental agreement” means a “rental agreement” as
defined and within the scope of RCW 19 59.18.030 and
RCW 59.18.040 of the RLTA in effect at the time the
rental agreement is executed. At the time of the
passage of the ordinance codified in this chapter, the
RLTA defined “rental agreement” as “all agreements
which establish or modify the terms, conditions, rules,
regulations, or any other provisions concerning the
use and occupancy of a dwelling unit.”
“Rental housing bidding platform” or “platform”
means a person that connects potential tenants and
landlords via an application based or online platform
to facilitate rental housing auctions wherein potential
tenants submit competing bids on certain lease
provisions including but not limited to housing costs
and lease term, to landlords for approval or denial.
Merely publishing a rental housing advertisement
does not make a person a rental housing bidding
platform. This definition shall expire on the date
Section 7.24.090 expires.
***
Section 3. A new Section 7.24.090 is added to the
Seattle Municipal Code as follows:
7.24.090 Use of online or application based
rental housing bidding services prohibited
A. Landlords and potential tenants are prohibited
from using rental housing bidding platforms for real
property located in Seattle city limits.
B. This Section 7.24.090 shall expire one year after
the effective date of the ordinance introduced as
Council Bill 119507 unless the City Council exercises

Appendix 79a
its authority under subsection 7.24.090.C, in which
case it shall expire at the end of the extension.
C. The City Council has the authority to extend the
prohibition in subsection 7.24.090.A by up to 12
months if the Office of Housing requests more time to
complete the study of rental housing impacts, or if the
Council needs more time to review the study or
discuss potential action.
Section 4. The provisions of this ordinance are
declared to be separate and severable. If any clause,
sentence, paragraph, subdivision, section, subsection
or portion of this ordinance, or the application thereof
to any person or circumstance, is held to be invalid, it
shall not affect the validity of the remainder of this
ordinance, or the validity of its application to other
persons or circumstances.
Section 5. This ordinance shall take effect and be
in force 30 days after its approval by the Mayor, but if
not approved and returned by the Mayor within ten
days after presentation, it shall take effect as provided
by the Seattle Municipal Code Section 1.04.020.
Passed by the City Council on the 10th day of June,
2019, and signed by me in open session in
authentication of its passage this 10th day of June,
2019.
s/ Bruce A. Harrell
President of the City Council
Approved by me this 17th day of June, 2019.
s/ Jenny A. Durkan
Mayor
Filed by me this 17th day of June, 2019.

Appendix 80a

(Seal)

s/ Monica Martinez Simmons
City Clerk

Appendix 81a
SEATTLE
Office of Housing
RENT BIDDING STUDY
Date: July 3, 2019
To: Seattle City Council, Housing, Health, Energy &
Workers’ Rights Committee, Chair Mosqueda
From: Emily Alvarado and Bin Jung, Office of
Housing
OVERVIEW
Seattle Ordinance 125551 established a one-year
moratorium on rental housing rent bidding platforms
and directed the Seattle Office of Housing (OH) to
study the potential impacts of rent bidding platforms
on Seattle’s housing market. The ordinance was
passed after online and mobile application-based
rental bidding platforms, Rentberry and Biddwell,
entered the Seattle housing market in 2017.
Rentberry was quickly criticized by the Associated
Students of the University of Washington Student
Senate (ASUW). ASUW brought up the issue with
City of Seattle Councilmembers, after which City
Council decided to move forward with a moratorium
on rental bidding platforms. The Seattle City Council
instituted Ordinance 125551 in April 2018. The brief
duration of rental bidding platforms operating in
Seattle prevented local data collection. As a result, the
effect of rental bidding platforms on the Seattle rental
housing market and on equitable access to housing
cannot be analyzed. Rental bidding platforms have
been in operation in other cities, which provides
insight into how the City of Seattle could proceed.
However, rental bidding platforms have been largely

Appendix 82a
unpopular amongst renters and municipalities, and
their establishment in cities is questionable. This
study provides relevant information from other cities
regarding rental bidding platforms where available,
and identifies how the platforms could pose potential
violations of City, State, and Federal laws and
regulations if allowed to operate in Seattle. The report
details:
▪Background information
▪Issues and potential violations
▪Topics for further analysis
BACKGROUND
Rental bidding is a practice where prospective
tenants compete for a rental unit by negotiating with
the landlord on the amount of rent charged. Rental
bidding has become more common over the past
decade due to high demand for rental housing and the
scarcity of rental housing, specifically at lower-income
ranges. Rental bidding platforms institutionalize the
practice of rent bidding by creating an online auction
marketplace for rental housing. Multiple sources have
likened rental bidding platforms to “eBay for
housing.”
However, in the past few weeks, some rental
bidding platforms have transitioned to focus more on
advertising rental properties than on rental bidding.
Previous conversations with trade organizations
representing landlords had revealed that using rental
bidding platforms as an additional advertising
opportunity would be of interest to landlords,
specifically smaller landlords who conduct their own
advertising. A recent review showed a large

Appendix 83a
percentage of listings posted on rental bidding
platform websites were advertisements for properties
listed on StreetEasy, Zillow, Craigslist, and
realtor.com. Few listings were exclusive to the rental
bidding platform, questioning if rental bidding would
actually occur for the property. As rental bidding
platforms continue to evolve, fewer challenges could
be posed leading to less need to take further analysis
or additional action.
The design of rental bidding platforms varies. In
general, landlords list available properties on the
platform and set an initial asking monthly rent.
Prospective tenants create user profiles, which can
include information such as names, photographs,
credit scores, background checks, personal references,
work history, previous residences, and links to social
media accounts. After finding a rental unit to their
liking, prospective tenants offer a monthly rent bid to
the landlord for their consideration. Bids are allowed
to be submitted for a period of time, after which
landlords select a tenant based on their monthly rent
bid and additional screening criteria.
The design of some rental bidding platforms allows
prospective renters to see the number of bids placed
and the current highest bid. Other platforms do not
provide that information, and bidders provide a closed
bid without knowledge of the current highest bid
amount. After the landlord selects the winning bid,
the landlord-tenant relationship and screening
process move offline. However, some rental bidding
platforms have incorporated automated landlord
services such as background checks, lease signings,
rent collection, and maintenance requests into their

Appendix 84a
operations, and encourage landlords and tenants to
conduct all business through their app.
The objective of rental bidding platforms is to
create an online market place that connects landlords
and prospective tenants, and provides an opportunity
to negotiate rents. Rent bidding platforms often profit
by receiving a commission for successful lease
signings. In the case of Rentberry, if the landlord
selects an offer with a monthly rent greater than their
initial listed price, Rentberry receives an additional
monthly payment of 25% of the difference. [Moffitt,
2016]
Rent bidding platforms became active in the San
Francisco Bay Area and major Australian cities in
2017, and were universally met with critique from
tenant organizations and the media. Commentary
from the San Francisco Rent Board, Australian tenant
unions, and various media outlets underscored the
potential for rental bidding platforms to exploit scarce
rental markets, exacerbate housing affordability
crises in their respective cities, and discriminate
against low-income households and populations
vulnerable to displacement. [Jacobs, 2019]
In response, rent bidding platforms asserted the
technology could provide an opportunity to reset a
housing market with inflated rents. These claims are
unable to be validated, partially due to the fact that
rental bidding platforms were originally released
exclusively
in
cities
experiencing
housing
affordability crises and tight rental markets.
Although rental bidding platforms have since
expanded to other cities, any effect that rental bidding
platforms have on weak or strong housing markets is
difficult to disaggregate and attribute directly to

Appendix 85a
rental bidding platforms. Currently, Seattle is also in
a severe affordable housing crisis where the demand
for rental housing, specifically affordable rental
housing for low-income households, outstrips the
supply. As a result, an analysis of the effect of rental
bidding platforms in a weak Seattle market cannot be
conducted until a surplus of affordable housing stock
at all income levels is reached.
In Seattle, the ASUW called on the City of Seattle
to ban rental bidding platforms after the app
Rentberry was released in 2017 and rental housing in
the University District began to appear on the app.
The ASUW statement noted existing high rents, the
cost of housing as a significant part of the cost of
education, and Seattle’s standing as one of the most
competitive housing markets in the United States.
ASUW also referenced Rentberry’s initial marketing
to landlords that claimed that apartment rents would
rise an average of 5% when listed on their app, and
also noted that Rentberry changed this claim in
response to public backlash.
ASUW brought up the issue of rental bidding with
City of Seattle Councilmembers, and in March 2018,
the City of Seattle approved Ordinance 125551. The
Ordinance established a one-year prohibition on the
use of rental bidding platforms and requested a study
from the Seattle Office of Housing on rental bidding
platforms. Rentberry, Inc. and Delaney Wysingle, an
individual that owned a rental property in Seattle,
then sued the City over the prohibition. Rentberry
and Wysingle claimed that the ordinance violated
their right to free speech under the First and
Fourteenth Amendments. In March 2019, District
Court Judge Richard A. Jones ruled in favor of the

Appendix 86a
City of Seattle, concluding that the use of rental
bidding platforms was a form of conduct, not speech.
The Plaintiffs have appealed to the Ninth Circuit
Court, and the appeal is currently pending.
ISSUES AND POTENTIAL VIOLATIONS
Ordinance 125551 detailed multiple concerns
regarding rental bidding platforms, including:






Compliance with federal fair housing
protections,
state
rental
housing
regulations, and Seattle Municipal Code
(SMC)
Equitable access to rental housing
The effect of rental bidding on the housing
market depending on the scarcity of housing
supply
A lack of information regarding benefits and
drawbacks to landlords and tenants

The issues and potential violations posed by rental
bidding platforms as they relate to these concerns are
presented below. Although focused on local
implications, this section includes information and
insight from other cities with rental bidding platforms
in operation. In particular, the experience of the city
of Melbourne, Australia provides an interesting case
study.
Compliance with fair housing protections –
Housing discrimination against protected
classes
Discrimination in housing is prohibited at the
federal, state, and local levels. Laws and regulations
at the state and city levels broaden the number of
communities
protected
against
housing

Appendix 87a
discrimination. Rental bidding platforms could
potentially violate anti-discrimination law if their
design and operations do not comply with federal,
state, and city regulations. Discrimination and
implicit bias in housing is widely known and wellstudied. Research on discrimination in online housing
rental services is also growing, providing a foundation
by which to understand the implications of rental
bidding platforms.
The Fair Housing Act of 1968 prohibits
discrimination in housing based on the basis of race,
color, religion, sex, disability, familial status, or
national origin. The Fair Housing Act was intended to
supplement the Civil Rights Act of 1964, and marked
the creation of federal enforcement provisions against
discrimination in housing. In Washington State, it is
illegal to discriminate against prospective and current
tenants on the basis of sexual orientation, gender
identity, and veteran/military status. Furthermore,
within the city limits of Seattle, it is illegal to
discriminate based on political ideology, use of a
trained guide dog, or use of a Housing Choice (Section
8) Voucher. These additional protections were added
by the city and state to address systematic harm and
move towards more fair and equitable access to
housing.
The design and interface of some rental bidding
platforms mimic other housing rental apps, such as
Airbnb and HomeAway, that have been criticized for
allowing racial discrimination to occur on their
platforms. A solid body of academic research, articles,
social media testimonials, and anecdotal evidence on
racial discrimination witnessed on Airbnb exists, and

Appendix 88a
can inform best practices for other online housing
rental apps.
Airbnb is a cornerstone of the sharing economy,
and positions itself as a platform that connects people
who have particular goods, in this case, housing, with
those who wish to obtain them. Airbnb requires users
to create profiles with real names and pictures to
create this community of people and facilitate a sense
of trust and sharing amongst them. However,
prospective guests who were Black, had disabilities,
or were transgender have repeatedly been refused
lodging on Airbnb in multiple cities nationwide and
around the world. [Glusac, 2016] The major criticism
is that the use of real names and photos in user
profiles triggers racial profiling and discrimination.
All of these prospective guests listed are members of
protected classes in the city of Seattle, and it would be
illegal to discriminate against them.
A 2016 study found that guests with distinctively
Black names were 16% less likely to be accepted
relative to identical guests with distinctively White
names. The study conducted a field experiment where
messages were sent to 6,400 listings on Airbnb across
five cities. Messages sent by accounts with
distinctively Black names received a positive response
42% of the time, compared to 50% of the time for
accounts with distinctively White names. An
additional analysis found that discrimination against
accounts with distinctively Black names was limited
to hosts who had never previously had a Black guest,
suggesting that the host’s behavior is consistent with
broader underlying pattern of discrimination.
[Edelman, Luca, & Svirsky, 2016]

Appendix 89a
Federal and state government audits testing for
racial discrimination since the Fair Housing Act was
passed has shown an overall decrease in face-to-face
discrimination in regulated offline, in-person housing
markets. This is not to imply that discrimination does
not exist. The Seattle Office of Civil Rights (OCR) has
tested for, and found, discrimination against
protected classes in the Seattle housing market.
Offline housing markets can be audited and tested for
housing discrimination, whereas testing for
discrimination in online platforms is still a relatively
new, but critical, monitoring practice.
Furthermore, the anonymity of online markets in
conjunction with key product design choices could
work to discourage discrimination in housing rental
platforms. For example, eBay uses online user
handles rather than real names. These online user
handles can offer fewer indicators of race or ethnicity,
whereas platforms that make race, sex, disability, and
other protected class characteristics visible may
trigger explicit/implicit bias and discrimination.
Compliance with fair housing protections –
Subsidy discrimination
Rental bidding platforms may be incompatible or
inherently problematic with housing subsidy
programs if the auction process consistently raises
rents beyond voucher holders’ ability to pay,
regardless of the affordability of the initial asking
rent. Housing Choice Voucher (HCV) holders may be
rendered uncompetitive in rental bidding platforms,
which could be discriminatory, violate fair housing
law, and impede equitable access to housing if
available housing is listed exclusively on these
platforms.

Appendix 90a
As stated, the Revised Code of Washington
prohibits discrimination of a prospective tenant based
on source of income. Source of income refers to benefit
or subsidy programs, such as housing and public
assistance programs, veteran’s benefits, social
security, or other supplemental security income.
Housing Choice Vouchers, previously called Section 8
vouchers, are classified as a source of income.
Furthermore, in 2016, the City of Seattle passed
alternative source of income protections, which
expanded fair housing protections for renters who use
alternative sources of income and subsidies to pay for
housing costs. This expanded the applicable subsidy
programs to include short-or long-term subsidy
offered by a government programs, private nonprofits,
or any other assistance program that pays a tenant’s
rent through a direct arrangement between the
program and the property owner.
The Housing Choice Voucher (HCV) program is a
housing subsidy program administered by the Seattle
Housing Authority (SHA). The program assists lowincome families, individuals, seniors, and people with
disabilities in finding housing in the private market.
A monthly maximum rent amount is calculated for
households participating in the program; households
pay typically 30-40% of their monthly income towards
the maximum rent, and the HCV pays the remaining
portion. HCV holders must find housing with a rent
that is either at, or below, the maximum amount
listed on their voucher.
Use of a HCV requires coordination between the
voucher holder, SHA, and the landlord of the rentable
unit. After a voucher-holding household finds a
suitable unit, the landlord of the unit must complete

Appendix 91a
and return an SHA Leasing Kit for approval. SHA
must determine the rent to be reasonable for the HCV
holder and the neighborhood before approval. If there
is a question about the rent, SHA may engage in a
negotiation process with the landlord to set an
affordable and reasonable rent. SHA then conducts a
Housing Quality Standards (HQS) inspection of the
unit to ensure it is decent, safe, and sanitary. If the
unit does not pass inspection, the landlord is required
to make repairs before a tenant move-in. The final
lease is not signed until the Leasing Kit is received,
the rent is approved, and a HQS inspection is
completed. All three parties, tenant, HCV, and
landlord will need to sign an agreement.
The average time for a HCV household to move
into an apartment is approximately two weeks, but
that is subject to change. Variables such as return of
the Leasing Kit, rent negotiation, and HQS inspection
could extend the time it takes for a lease to be signed
and a tenant to move in. There is no commitment
between the landlord and tenant, and either party can
cancel the process until a lease is signed. The
necessity for time and coordination has been
challenging for some HCV holders in their housing
search. Most large property management companies
utilize a dynamic pricing algorithm that relies on
time-based pricing reflecting market supply and
demand to set rents for their available units. Rents
are subject to change throughout the month. HCV
holders are unable to confirm their eligibility to move
into a unit until the Leasing Kit is completed and
approved by SHA and the unit passes SHA inspection.
The rent amount is set when a HCV holder applies for
an apartment and provides the landlord with a
Leasing Kit. However, the time between the offer of a

Appendix 92a
Leasing Kit and actual move-in is subject to
coordination and approval by SHA. This may require
a resetting of rent by the property management
company as dictated by their pricing algorithm, which
could restart the process or price out the tenant from
the available unit.
On rental bidding platforms, landlords select a
tenant based on their rent offer and additional
screening criteria. Although rental bidding platforms
advocate that a landlord can conduct a holistic
evaluation of the tenant, a rent auction could cause a
landlord to judge higher rent offers with more weight
than other screening criteria. HCV households are at
a disadvantage in rent auctions due to their rent and
income limits and although HCV holders are
protected under multiple levels of the law, rental
bidding platforms have yet to implement design
interventions that prevent source of income
discrimination. Low-income households at large are
also implicated, echoing the major critique that
higher-income households will have a competitive
edge in rent auctions and that disadvantaged
populations will be further isolated from housing
opportunities.
Lack of information on effect to Seattle’s
housing market and to tenants and landlords
Rental bidding platforms are a relatively nascent
technology that appeared in select major cities in
2017. The brief duration of rental bidding platforms
in Seattle prevented local data collection, and data on
rental bidding platforms from other cities is also
minimal. Rental bidding platforms appear to be
utilized for their advertising capacity, but there is
lack of information tracking the effect of rental

Appendix 93a
bidding platforms on successful lease signings or the
demographics of renters who secure housing on the
platforms. To OH’s knowledge, no studies or audits
have been conducted to collect data on these
platforms. The difficulty in disaggregating the effect
rental bidding platforms have on the housing market
from other market factors also contributes to the lack
of information on the technology. Any study on the
effect of rental bidding platforms on a housing market
would require a rigorous methodology in order to draw
significant and sound conclusions.
Before the app Rentberry’s release in San
Francisco, the company conducted a test to see what
the effect of the app would be on landlords in the San
Francisco/San Jose area. Rentberry concluded that
landlords would be able to see a 5% increase on rents
when using its rental bidding app. [Kendall, 2017]
The sample size was ten landlords and Rentberry did
not divulge its analysis, and so the results of the test
should be viewed in isolation. After immediate
negative press on the app’s ability to increase rents,
Rentberry soon after stated that rents for housing
units listed on its app had decreased by 5% within 10
test cities. [Mims, 2017] No subsequent data has been
released by Rentberry or any other app to
demonstrate that rental bidding platforms result in
lower rents, particularly in strong rental markets.
Seattle has an extremely competitive housing
market with a scarcity of affordable housing stock for
low-income households and populations vulnerable to
displacement. More information about rental bidding
platforms and their effect on the local housing market,
landlords, and tenants will not be available unless
rental bidding platforms are reinstated. However,

Appendix 94a
clear concerns exist on how rental bidding platforms’
design and operation could violate federal, state, and
local law, and negatively affect low-income
households and protected classes. These protections
and issues are not unique to Seattle, and rental
bidding platforms have also not demonstrated
compliance with regulation and accessibility
requirements in other cities.
Equitable access –Digital inequality
The design and interface of rental bidding
platforms
presents
more
issues
regarding
accessibility and equitable access to housing
opportunities. Digital inequality is an established
concern for those with limited internet access, English
language learners, and populations with disabilities.
New technologies offer opportunities to engage a
broader and more diverse population than the
traditional formats of posters, newspapers/television,
phone
calls,
mailings,
and
in-person
announcements/conversations alone. However, new
technologies can be exclusionary if their design and
interface do not consider and amend design for
disadvantaged populations. In addition, equitable
access is also questioned if housing opportunities are
listed exclusively on rental bidding platforms.
Multiple factors contribute to digital inequality
including device and internet access, skill level and
technological
literacy,
and
support/technical
assistance. Rental bidding platforms require a
computer or smartphone with internet access to view
the rental housing opportunities listed. Low-income
households have lower rates of in-home broadband
internet connectivity compared to higher-income
households, and are more likely to depend on

Appendix 95a
smartphones rather than computers to have internet
access at home. [U.S. Department of Housing and
Urban Development, 2016] Computer access maybe
limited to shared machines in public spaces such as
libraries, which present additional obstacles of time,
availability, and age of technology. Smartphones may
be ubiquitous, but internet speed and data packages
can be costly and be an additional barrier to access.
Furthermore, smartphones are only as valuable as
one’s ability to utilize them. Technological literacy
and skill levels with new technologies vary among
English language learners, seniors, and populations
with disabilities. Moreover, new technologies may
also not always be available in formats or languages
that are compatible to population needs, forcing
people to seek out support or technical assistance in
order to utilize the app. Rent auctions through an app
are a time-sensitive process that requires consistent
engagement with the technology.
CASE STUDY: MELBOURNE, AUSTRALIA
The City of Melbourne’s experience with rental
bidding platforms provides an interesting example by
which to understand the entry of a technology into a
contested environment and its ultimate resolution.
Rental bidding platforms, including Rentberry,
entered the Melbourne housing market in 2017. The
City of Melbourne, located in the state of Victoria, had
been experiencing massive population growth in the
past years that outpaced the production of housing,
leading to an affordability crisis. The pressure of the
crisis was felt throughout the city. Media reports and
articles reflected broad concern regarding the rapid
increase of rents in rental housing, the decrease in
homeownership opportunities, and the gentrification

Appendix 96a
of neighborhoods. The City’s comprehensive plan
charted the goal to accommodate and house over 1.6
million new residents in the next 35 years and
highlighted initiatives to increase density and create
more affordable housing. [Victoria State Government,
2016]
Similar to other cities, rental bidding platforms
faced immediate criticism in Melbourne and other
Australian states from residents, tenant unions, and
media outlets. Tenants Union of Victoria, a
governmental organization that promotes and
protects rights of tenants and residents in the state,
fiercely opposed Rentberry and the practice of rent
bidding. Although Rentberry marketed itself to bring
transparency to an opaque landlord-tenant rent
negotiation, Tenants Union of Victoria stated rental
bidding platforms aggravated a lack of transparency
around rental prices in housing, and placed lowerincome populations competed with higher-income
populations in a bidding competition.[Robb & Zhou,
2017]
Housing issues and concerns are addressed by the
Consumer Affairs unit in the state of Victoria. In
2016, Consumer Affairs Victoria commissioned a
report on rental experiences for tenants, landlords,
and property managers in the state. The report
surveyed 1,836 tenants in Melbourne, and found that
up to 20% of prospective tenants had offered to pay
more than the listed renting price to give themselves
a competitive edge over other applicants. In most
cases, the prospective tenant offered a higher rent, but
nearly a quarter of tenants reported that a higher rent
amount was suggested to them by the real estate
agent or landlord. The report also found that the

Appendix 97a
practice of offering higher monthly rents became more
common with higher income populations, with 50% of
those in the middle to highest quintiles of income
offering to pay more than the listed rent. [Ernst &
Young, 2016]
This study affirms that higher income households
are able to be more competitive in rent auctions than
low-income households by the sheer nature of being
able to offer more rent. Although offering more rent
was not illegal in Victoria, concerns were raised
regarding the prevalence of the practice and its effect
on low-income households in securing housing. As
housing issues fell within the purview of consumer
affairs, Consumer Affairs Victoria concluded that
advertising a property at a price lower than what a
landlord was willing to accept could have been deemed
‘false and misleading conduct,’ which was a violation
of law. [State government of Victoria, 2016] Therefore,
rental bidding and rental bidding platforms posed to
be a potential mechanism for false and misleading
conduct by allowing landlords to list monthly rents
they knew were not genuine asking amounts. In
September 2018, the Victorian Government passed
the Residential Tenancies Amendment Bill, which
included a reform that prohibited rental auctions and
required fixed rent amounts in advertisements for
available housing units. [Parliament of Victoria, 2018]
There are clear differences in how the City of
Melbourne and the City of Seattle address housing
issues. Contrary to the state of Victoria, Australia,
landlord-tenant issues in Washington State are
generally regulated under the Residential-Landlord
Tenant Act rather than the Consumer Protection Act.
However, the example of Melbourne surfaces the

Appendix 98a
question of whether rental bidding platforms comply
with the wide range of state law.
RECOMMENDATIONS
ANALYSIS

AND

FURTHER

Seattle’s housing affordability crisis is a critical
issue for the City and its citizens. Recent revisions to
the housing code and updates to fair housing
protections expand equitable access to rental housing,
and demonstrate the City’s commitment to equity.
The following topics should be investigated if rental
bidding platforms are to be allowed to operate in
Seattle.
First-in-Time case
In 2016, the City of Seattle passed First-in-Time
legislation, which required landlords advertising
rental housing to offer tenancy to the first qualified
applicant that met the established screening criteria.
The objective of First-in-Time was to combat implicit
bias resulting in housing discrimination. First-inTime was overturned in 2018, and the City of Seattle
successfully sought direct review by the Washington
State Supreme Court. The outcome of this case may
affect rental bidding platforms, in that rental bidding
platforms would violate First-in-Time if it were to be
restored. The Supreme Court heard oral argument on
that matter on June 11, 2019. The timeline following
the oral argument is to be determined as decisions
typically require a few months, although they could
take longer.

Appendix 99a
Further analysis on the effect on landlords
and tenants
As stated previously, there is little data on the
effect of rent bidding platforms in Seattle, given the
limited time period they were in operation locally.
Conversations with representatives from trade
organizations
representing
Washington
State
landlords provided limited information on the effect of
rental bidding platforms on membership operations.
A representative of the Washington Multi-Family
Housing Association (WMFHA), a professional trade
organization that represents larger multi-family
properties, stated that the organization’s constituency
did not use rental bidding platforms when they
existed
in
Seattle
(B.
Waller,
personal
communication, April 22, 2019). WMFHA’s
constituency would also most likely not be interested
in the service due to the large size of the buildings and
the prevalent use of dynamic pricing algorithms to set
rents. A representative from the Rental Housing
Association of Washington, which represents small
rental property owners and managers, remarked that
the majority of their membership also did not use
rental bidding platforms in advance of the
moratorium, although a percentage may be interested
in trying the platforms in the future if they were to be
reinstated, if only for the advertising opportunity (S.
Martin and H. Pierce, personal communication, April
25, 2019).
Regarding the effect of rental bidding platforms on
renters, future analysis could include which
populations or demographics more frequently achieve
winning bids in comparison to the demographics of all
bidders. An online audit could also be done to evaluate

Appendix 100a
housing discrimination and implicit bias on rental
bidding platforms. The experience of Housing Choice
Voucher (HCV) holders should be researched further
to better understand if HCV holders are consistently
rendered uncompetitive, or otherwise discouraged or
prevented from using rent bidding platforms.
Additional research on the geographic location of
properties utilizing rental bidding platforms could
also provide information on the effect of these
platforms in different local markets, and the extent to
which they can intensify real estate pressures in a
neighborhood.
Other Washington State law violations
The compliance of rental bidding platforms with
all provisions of the Residential-Landlord Tenant Act
is to be determined, as is their compliance with all
other Washington State laws. For example,
Washington State requires real estate brokers to be
licensed and regulated, and, in general, leasing
property in exchange for compensation is something
that requires a broker’s license. Whether rental
bidding platforms may need to be comply with real
estate broker requirements due to their operations
should be determined. Finally, auctioneers are also
required to be licensed in Washington State, and it is
not clear whether a rent bidding auction may require
an auctioneer license.
Rent control
The imposition of controls on rent or the regulation
of rent in residential rental buildings that are not lowincome housing is prohibited by RCW 35.21.830. The
prohibition of rental bidding platforms may be in
violation of this regulation if interpreted to be a

Appendix 101a
control on how much rent private persons can charge
for rental properties.
Additional services – Security deposits and
background checks
Some rental bidding platforms extend their scope
to include automated landlord services such as
security deposit and rent collection, and maintenance
requests. For example, Rentberry allows prospective
renters to bid on security deposit amounts in addition
to the monthly rent. This could be a potential violation
of City of Seattle Ordinance 125222, which limits the
security deposit and non-refundable move-in fees
amount to the amount of the first full month’s rent.
In Washington State, landlords must also notify
prospective tenants by writing, or posting, what types
of information will be accessed in the tenant
screening, and what criteria may result in denial of
the application prior to obtaining any information
about a prospective tenant. This could pose a potential
issue for rental bidding platforms that incorporate
automated landlord services into their products.
Currently, two major rental bidding platforms,
Rentberry and Bidwell, include automated landlord
services in their operations. Automated landlord
service applications can also provide background
checks using a third-party provider.
In 2017, the City of Seattle passed Fair Chance
Housing legislation, which prohibits landlords from
committing unfair practices against renters based on
arrest or conviction records, or criminal history. If
rental bidding platforms were to be reinstated in the
City, then all of their services would need to comply
with this code and regulation. Landlords are

Appendix 102a
prohibited from inquiring about criminal history,
performing criminal history background checks,
requiring disclosure about criminal history, or
rejecting an applicant, or taking an adverse action
based on a prospective tenant’s criminal history.
Landlords are also required to provide Fair Chance
Housing language on all applications for rental
properties, including online applications. A lawsuit
has been brought against City of Seattle regarding
Fair Chance Housing, but the Office for Civil Rights
(OCR) has full authority to enforce the ordinance
while litigation is pending.
Recommendations
The Office of Housing offers options for
consideration but does not recommend either the
reinstate mentor prohibition of rental bidding
platforms, namely due to the pending First-in-Time
appeal and that decision’s direct consequence on
rental bidding platforms. However, reasonable
conclusions can be made on rental bidding platforms
based on their design and potential violations to
federal, state, and local law and regulation.
Notwithstanding a firm recommendation, rental
bidding platforms should show evidence of compliance
and consideration with law and regulation before
reinstatement in the City of Seattle. Specifically,
rental bidding platforms should demonstrate how
operations would comply with federal fair housing
laws, Housing Choice Voucher (HCV accessibility, and
anti-housing discrimination regulation.
In order to ensure compliance and encourage
equitable access to all populations, the following
recommendations are offered for consideration:

Appendix 103a
o SMC 7.24.090 – Use of online or
application based rental housing bidding
services prohibited
 Modify to be effective in
perpetuity, or until rental bidding
platforms
can
affirmatively
demonstrate compliance with all
federal, state and local laws, and
fair and equitable operations
o SMC 14.08 –Unfair Housing Practices
 Include requirements for rental
bidding platforms to ensure
compliance and equitable access
such as:
o HCV accessibility
o Anonymous profiles
o Accessible formats for people
with disabilities
o Multiple language support
o Listed screening criteria
o SMC 14.08.015 –Seattle Open Housing
Poster
 Require Seattle Open Housing
Poster on all rental bidding
platforms
o Modify
rental
bidding
platforms
operations to allow HCV holders to be
competitive in the rent auction process
REFERENCES
Controls on rent for residential structures—
Prohibited—Exceptions. (RCW 35.21.830)
Edelman, B., Luca, M., & Svirsky, D. (2016). Racial
Discrimination in the Sharing Economy: Evidence

Appendix 104a
from a Field Experiment. Harvard Business School,
Working Paper 16-069
Ernst & Young, Australia. (2016). Consumer Affairs
Victoria: Rental experiences of tenants, landlords,
property managers, and parks residents in Victoria
(EY Sweeney Ref No. 25463 and 25464). Retrieved
from
https://s3.ap-southeast2.amazonaws.com/hdp.au.prod.app.vicengage.files/5814/8781/7797/Victorian_Renting_Rese
arch_Report_-_RTA_Review_1.pdf
Fair Housing Act of 1969, 42 U.S. Code § 3601-3619
and 3631
Glusac, E. (2016, June 21). As Airbnb grows, so do
claims
of
discrimination.
Retrieved
from:
https://www.nytimes.com/2016/06/26/travel/airbnbdiscrimination-lawsuit.html
Jacobs, L. (Producer). (2019, March 25). Techlash City
[Audio
podcast].
Retrieved
from
https://www.citylab.com/solutions/2019/02/podcasttechnopolis/583096/
Mims, C. (2017, April 2). Want that apartment? You
may have to bid for it. Retrieved from
https://www.wsj.com/articles/want-that-apartmentyou-may-have-to-bid-for-it-1491134407
Moffitt, M. (2016, May 16). SF startup lets would-be
tenants bid for apartments. Retrieved from
https://www.sfgate.com/technology/article/SFstartup-seeks-to-auction-off-rental-apartments7467415.php
Residential Tenancies Amendment Bill: Parliament of
Victoria (2018)

Appendix 105a
Screening of prospective tenants—Notice to
prospective tenant—Costs—Adverse action notice—
Violation. (RCW 59.18.257)
Seattle, Washington, Ordinance 125222 (2016)
Seattle, Washington, Ordinance 125393 (2017)
Seattle, Washington, Ordinance 12555 (2018)
Source of income—Landlords prohibited from certain
acts—Violation—Penalties. (RCW 59.18.255)
Robb, K. & Zhou, C. (2017, April 1). Controversial US
‘rent-bidding’ start-up Rentberry to launch in
Australia, tenant unions slam the idea. Retrieved from
https://www.domain.com.au/news/controversial-usrentbidding-startup-rentberry-to-launch-inaustralia-tenant-unions-slam-the-idea-20170401gvbgtn/
State Government of Victoria. (2016). Issues Paper –
Rent, bonds and other charges: Residential Tenancies
Act Review. Retrieved from https://s3.ap-southeast-

Appendix 106a
CITY OF SEATTLE
ORDINANCE 126053
COUNCIL BILL CB 119752
AN ORDINANCE relating to fair housing;
regulating rental housing bidding platforms;
repealing a one-year prohibition on use of rental
housing bidding platforms; repealing Section 7.24.090
of the Seattle Municipal Code; and amending Section
7.24.020 of the Seattle Municipal Code.
WHEREAS, online or application-based platforms
that provide landlords the ability to list rental
housing units, oblige potential tenants to bid on
certain lease provisions, and allow landlords their
choice of tenant based on the tenant’s bid and
screening criteria appeared over the last several years
in many housing markets, including Seattle’s; and
WHEREAS, the City Council (“Council”) wished to
determine whether the structure and operation of new
application-based and online services complied with
the new and different regulatory landscape in· Seattle
from changes to Seattle’s laws including regulating
rentals, revising the housing code, and updating fair
housing protections; and
WHEREAS, the Council wishes to know more
about how these services function and the impact they
may have on Seattle’s rental housing market before
allowing landlords and tenants to use them within
Seattle; and
WHEREAS, the Council passed Ordinance 125551
in March 2018, prohibiting landlords and potential

Appendix 107a
tenants from using rental housing bidding platforms
for real property located in Seattle city limits; and
WHEREAS, Ordinance 125551 also included a
request for the Office of Housing to “conduct a study
of the current or potential impacts rental housing
bidding platforms have and could have on equitable
access to Seattle’s rental housing market”; and
WHEREAS, the prohibition expired on April 30,
2019; and
WHEREAS, the Council passed Ordinance 125840
in June 2019, instituting another year-long
prohibition against landlords and potential tenants
using rental housing bidding platforms for real
property located in Seattle city limits, in anticipation
of the July 2019 release of Office of Housing’s study
and the need for time to consider subsequent action
after the report’ s issuance; and
WHEREAS , the Office of Housing transmitted its
study on rent bidding (“Rent Bidding Study”) in July
2019, and found that because of the brief period of
operation of the rental housing bidding platforms in
Seattle, the effects of these platforms on the Seattle
housing market and on equitable access could not be
analyzed; and
WHEREAS, the Rent Bidding Study reviewed
potential issues associated with compliance with fair
housing protections and equitable access; and
WHEREAS, the Rent Bidding Study recommended
investigation of several topics if rental housing
platforms were allowed to operate in Seattle,
including compliance with “first -in- time” tenant
screening requirements, which have since been

Appendix 108a
affirmed by the Washington State Supreme Court;
analysis of the effects on landlords and tenants; and
compliance with provisions of the Residential
Landlord-Tenant Act and other Washington State
laws; and
WHEREAS, the Rent Bidding study indicated that
rental housing bidding platforms should show
evidence of compliance and considerations of cu1Tent
law before reinstating the use of the platform by
landlords and tenants; and
WHEREAS, the Rent Bidding Study recommended
that
rental bidding
platforms affirmatively
demonstrate compliance with all federal, state, and
local laws as well as consideration of fairness and
equity; and
WHEREAS, the Rent Bidding Study specifically
recommended that the Seattle Municipal Code’s
regulation of unfair housing practices be modified to
include requirements that rental bidding platforms
ensure compliance and equitable access for those
persons with housing choice vouchers, and make
operations competitive for those with vouchers;
anonymize user profiles; make platforms accessible to
persons with disabilities; provide multiple language
support; add a requirement to list screening criteria;
and require that an Open Housing Poster be posted on
all platforms; NOW, THEREFORE,
BE IT ORDAINED BY THE CITY OF SEATTLE
AS FOLLOWS:
Section I. Section 7.24.020 of the Seattle Municipal
Code, last amended by Ordinance 125950, is amended
as follows:

Appendix 109a
7.24.020 Definitions
“Rental agreement” means a “rental agreement” as
defined and within the scope of RCW 59.18.30 and
RCW 59.18.040 of the RLTA in effect at the time the
rental agreement is executed. At the time of the
passage of the ordinance codified in this chapter, the
RLTA defined “rental agreement” as “all agreements
which establish or modify the terms, conditions, rules,
regulations, or any other provisions concerning the
use and occupancy of a dwelling unit.”
“Rental housing bidding platform” or “platform”
means a person that connects potential tenants and
landlords via an application based or online platform
to facilitate rental housing auctions wherein potential
tenants submit competing bids on certain lease
provisions including but not limited to housing costs
and lease term, to landlords for approval or denial.
Merely publishing a rental housing advertisement
does not make a person a rental housing bidding
platform. This definition shall expire on the date
Section 7.24.090 expires.
“Security deposit” means any payment, fee,
charge, or deposit of money paid to the landlord by the
tenant at the beginning of the tenancy as a deposit
and security for pe1formance of the tenant’s
obligations in a written rental agreement, but does
not include payment of a reservation fee authorized by
RCW 59.18.253(2) or a payment to assure the
payment of rent, provided that a security deposit may
be applied to rent as provided in Section 7.24.030.
Security deposits include payments, charges, or
deposits for the purpose of:

Appendix 110a
1. Repairing damage to the premises, exclusive of
ordinary wear and tear, caused by the tenant, or by a
guest or licensee of the tenant.
2. Compensating the landlord for the tenant’s
breach of the tenant’s duties prescribed in the rental
agreement to restore, replace, or return personal
property or appurtenances.
3. Compensating the landlord for the tenant’s
failure to return keys to the premises, except that a
landlord shall not retain any portion of the deposit for
keys for lock mechanisms that must be changed upon
a change of tenancy pursuant to subsection
22.206.140.A.7.
*****
Section 2. Section 7.24.090 of the Seattle
Municipal Code, last amended by Ordinance 125840,
is repealed:
(( 7.24.090 Use of online or application-based
rental housing bidding services prohibited
A. Landlords and potential tenants are prohibited
from using rental housing bidding platforms for real
property located in Seattle city limits.
B. This section 7.24.090 shall expire July 17, 2020
unless the City Council exercises its authority under
subsection 7.24.090.C, in which case it shall expire at
the end of the extension.
C. The City Council has the authority to extend the
prohibition in subsection 7.24.090.A by up to 12
months if the Office of Housing requests more time to
complete the study of rental housing impacts, or if the
Council needs more time to review the study or
discuss potential action. ))

Appendix 111a
Section 3. Upon the effective date of the repeal of
the prohibition, the City Council requests that the
Office of Housing to collect data to track whether
rental housing bidding platforms are functioning for
bidding purposes or only for advertising or other nonbidding functions, to determine whether the use of the
platforms in Seattle is having an impact on equitable
access to Seattle’s rental housing market. The Council
requests the Office of Housing provide the results of
its data collection and analysis by June 1, 2021.
Section 4. Upon the effective date of the repeal of
the prohibition, the City Council requests that the
Office for Civil Rights conduct testing to determine if
the use of the rental housing bidding platforms for
bidding purposes is in compliance with SMC 14.08.
The Council requests the Office for Civil Rights
provide the results of testing by June 1, 2021.
Section 5. The City Council requests that if the
data has shown that the platforms are functioning for
bidding purposes and there is an impact on equitable
access to rental housing, the Office for Civil Rights
and the Office of Housing work with Council to
determine whether and how the recommendations
outlined in the Rent Bidding study should be
implemented, including mitigating any unintended
consequences.
Section 6. The City Council encourages rental
housing bidding platforms to post the Seattle Open
Housing Poster on their website to ensure compliance
by those utilizing their services.
Section 7. This ordinance shall take effect and be
in force 30 days after its approval by the Mayor, but if
not approved and returned by the Mayor within ten

Appendix 112a
days after presentation, it shall take effect as provided
by Seattle Municipal Code Section 1.04.020.
Passed by the City Council on the 9th day of
March, 2020, and signed by me in open session in
authentication of its passage this 9th day of March,
2020.
President of the City Council s/ Teresa Mosqueda
Teresa Mosqueda, Councilmember
Approved by me this 13th day of March, 2020.
s/ Jenny A. Durkan
Mayor

(Seal)

Filed by me this 13th day of March, 2020.
s/ Monica Martinez Simmons
City Clerk

